<html>
<title> - NATIVE HAWAIIAN GOVERNMENT REORGANIZATION ACT</title>
<body><pre>[Senate Hearing 109-13]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 109-13

             NATIVE HAWAIIAN GOVERNMENT REORGANIZATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 147

TO EXPRESS THE POLICY OF THE UNITED STATES REGARDING THE UNITED STATES 
  RELATIONSHIP WITH NATIVE HAWAIIANS AND TO PROVIDE A PROCESS FOR THE 
   RECOGNITION BY THE UNITED STATES OF THE NATIVE HAWAIIAN GOVERNING 
                                 ENTITY

                               ----------                              

                             MARCH 1, 2005
                             WASHINGTON, DC

             NATIVE HAWAIIAN GOVERNMENT REORGANIZATION ACT


                    U.S. GOVERNMENT PRINTING OFFICE
99-723                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                                         S. Hrg. 109-13

             NATIVE HAWAIIAN GOVERNMENT REORGANIZATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 147

TO EXPRESS THE POLICY OF THE UNITED STATES REGARDING THE UNITED STATES 
  RELATIONSHIP WITH NATIVE HAWAIIANS AND TO PROVIDE A PROCESS FOR THE 
   RECOGNITION BY THE UNITED STATES OF THE NATIVE HAWAIIAN GOVERNING 
                                 ENTITY

                               __________

                             MARCH 1, 2005
                             WASHINGTON, DC

?

                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 147, text of..................................................     3
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............    41
    Apoliona, Haunani, chairperson, Board of Trustees, Office of 
      Hawaiian Affairs...........................................    51
    Bennett, Mark, attorney general, State of Hawaii.............    46
    Case, Hon. Ed, U.S. Representative from Hawaii...............    42
    Danner, Jade, director, Government Affairs and Community 
      Consultation, Council for Native Hawaiian Advancement......    55
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................    40
    Faleomavaega, Hon. Eni F.H., U.S. Delegate from American 
      Samoa......................................................    43
    Hall, Tex, president, National Congress of American Indians..    53
    Kane, Micah, chairman, Hawaiian Homes Commission.............    51
    Kitka, Julie, president, Alaska Federation of Natives........    53
    Lingle, Linda, Governor, from Hawaii.........................    46
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1

                                Appendix

Prepared statements:
    Abercrombie, Hon. Neil, U.S. Representative from Hawaii......    63
    Aina, Nellie.................................................   197
    Apio, Leialoha...............................................   196
    Apoliona, Haunani (with attachment)..........................    69
    Burgess, H. William, attorney................................    88
    Case, Hon. Ed, U.S. Representative from Hawaii...............    64
    Conklin, Kenneth R., Ph.D....................................    94
    Crowell Jr., Harold K.,......................................   184
    Crowell, MaryAnn.............................................   185
    Danner, Jade (with attachment)...............................    99
    Danner, Robin Puanani, president and CEO, Council for Native 
      Hawaiian Advancement.......................................   104
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................    65
    Fyfe, Kai'opua, director, The Koani Foundation...............   106
    Gaui, Michelle K.............................................   193
    Garcia-Ballard, Li, president, Native Hawaiian Economic 
      Alliance...................................................   107
    Hall, Tex (with attachment)..................................   108
    Huihui, Lavaina..............................................   192
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............    65
    Johnson, Hokuala.............................................   112
    Johnson, Rubellite Kawena Kinney.............................   113
    Kai, Ka'onohi Keali'iokapo...................................   118
    Kama Jr, Herman Kahalenani...................................   119
    Kama, Luana Na'mi............................................   120
    Keppeler, H.K. Bruss, chairman, Government Relations 
      Committee, Native Hawaiian Chamber of Commerce.............   121
    Kuroiwa Jr., James Isamu.....................................   123
    Lagon, Olin Kealoha, chief executive officer, Hawaiian 
      Homestead Technology, Inc..................................   126
    Lau, Brandi Ka'ala, vice president, Council for Native 
      Hawaiian Advancement.......................................   127
    Laughlin, Michael............................................   189
    Lee Loy, Emmett E., attorney (with attachment)...............   128
    Lingle, Linda, Governor, from Hawaii.........................    66
    Loa, Chief Maui, Hou Band of Native Hawaiians of the Blood of 
      Hawaii (with attachment)...................................   152
    Loui, Miriam P., president, NHBA Board of Directors..........   179
    Mokiao, Raymond and Annie....................................   186
    Nahoopii, Daniel K...........................................   180
    Nakoa, Austin P., chairman, Native Hawaiian Economic Alliance   182
    Naleieha, Abigail L..........................................   183
    Namu'o, Clyde W., administrator, Office of Hawaiian Affairs 
      (with letters).............................................   198
    Oshiro, Lisa C...............................................   456
    Peahi Jr., Apela.............................................   458
    Richards, Paul Pakahanui.....................................   459
    Rodrigues, Joe...............................................   461
    Sang Sr., Anthony H., chairman, State Council of Hawaiian 
      Homestead Associations (with attachment)...................   462
    Sang, Dawn K.................................................   191
    Sang, JoAnn U................................................   188
    Sang, Roy Kaleo..............................................   190
    Schoettle, Walter, R., attorney (with attachment)............   465
    Young, Candy.................................................   187
    Young, Elaine................................................   195
    Young, Stephan...............................................   194
Additional material submitted for the record:
    Kanahele, Pu'uhonua Dennis Bumpy, lecture by Professor 
      Francis Anthony Boyle on December 28, 2004.................   484
    Letters......................................................   498

 
             NATIVE HAWAIIAN GOVERNMENT REORGANIZATION ACT

                              ----------                              


                         TUESDAY, MARCH 1, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
485, Russell Senate Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain, Akaka, and Dorgan.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. Please take your seats and we 
will begin the hearing on time.
    I am pleased to convene this hearing this morning on S. 
147, the Native Hawaiian Government Reorganization Act of 2005, 
which my friends from Hawaii, Senators Akaka and Inouye have 
worked so hard to advance. I might add that Senator Inouye is 
ill this morning. I got a call from him. He is a little under 
the weather, and so he will not be here this morning, but he 
obviously has a very longstanding commitment and involvement on 
this issue.
    S. 147 legislates a process whereby Native Hawaiians can 
re-constitute a governmental entity. The history of the 
Hawaiian Islands and their annexation in the United States is 
not one of the shining moments in our history. That said, my 
reservations with this legislation have been reported more 
widely, in fact, than I anticipated. First, I want to be sure 
that the recognition of a Native Hawaiian government is not 
inconsistent with any understanding or agreements at the time 
of statehood in 1959. My staff on the Indian Affairs Committee 
has been researching this issue and I am sure others have been 
doing that as well.
    Second, I think the bill should not be read to release the 
State of Hawaii of any liabilities it has incurred or any 
obligations that it undertook as part of the statehood process.
    Finally, I feel that the resources are currently available 
to the Bureau of Indian Affairs, the Indian Health Service and 
other Federal agencies conducting Indian programs are already 
inadequate to meet the needs of Indian people. We want to be 
very careful about spreading it any thinner than they already 
are with the addition of a large population of new program 
recipients.
    I look forward to addressing these issues this morning. I 
understand that there are many people who have asked to testify 
today who we could not accommodate, including the Association 
of Hawaiian Civic Clubs. Regrettably, although our committee 
invited the Department of Justice to testify, they chose not to 
send a witness to today's hearing. I hope we can get the 
Administration's views on this bill at a later time.
    [Text of S. 147 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Please know that the committee will very 
carefully consider any written testimony it receives. I thank 
you all for being here, and I want to emphasize I am keeping an 
open mind on this issue. I have reservations, but I think those 
reservations will be ventilated here in this hearing process.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me just as a point of personal privilege as we begin 
this process say that this is the last hearing that will be 
attended by Patricia Zell, who has been the chief of staff on 
the minority side for so many years. She has worked with this 
committee for 24 years. There is perhaps no one in this country 
who is as knowledgeable and has committed their lives quite as 
wholly as Patricia Zell has to so many important causes. The 
committee will miss her expertise, but let all of us thank her 
for the wonderful service she has given to this country over 
these many years.
    [Applause.]
    Senator Dorgan. I will at the next hearing introduce Sara 
Garland who is succeeding Patricia Zell in this role.
    In the meantime, let me thank you, Mr. Chairman, for 
holding this hearing. Let me welcome the Governor and the two 
members of Congress. I think that our Senators, the two 
Senators from Hawaii, both of whom serve on this committee, 
have done an extraordinary job in laying out a process here 
that I think is reasonable and prudent and which will enable 
three levels of government here to develop a working 
relationship with one another that will be premised upon the 
consensus that will have to be built even after we pass this 
legislation, if we pass the legislation.
    I might say that I am inclined to be supportive of it. I 
think that this is a really important issue and an interesting 
issue. I will say, as the chairman did, that Senator Inouye, 
for whom this is an extraordinarily important issue, is not 
able to be with us today due to an illness, but I know Senator 
Akaka will ably represent him and the delegation today.
    I thank Congressman Case and also Congressman Faleomavaega 
for being with us. I have had the opportunity to visit with the 
chair of the Board of Trustees of the Office of Hawaiian 
Affairs and others, and learned that through this bill the 
Native Hawaiian people are asking for a status under Federal 
law that is equal to that of America's other native peoples, 
American Indians and Alaska Natives.
    This is just a really important issue where I am very 
pleased, Mr. Chairman, that you have called a hearing on this 
as early as we have. I look forward to hearing all of the 
witnesses.
    Let me ask that my full statement be made a part of the 
record, and also that the opening statement of Senator Inouye 
be made a part of the record.
    The Chairman. Without objection.
    [Prepared statements of Senators Dorgan and Inouye appear 
in appendix.]
    The Chairman. Senator Akaka.

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I thank 
you very much for holding this hearing. Mr. Chairman, I want 
you to know that I am joining you on this committee and will be 
working with you with much aloha coming from Hawaii, and tell 
you that I really appreciate what you are doing for Hawaii and 
the people of Hawaii today by having this hearing.
    As you know, this is the fourth Congress in which this 
committee is considering this legislation. Time has really 
flown. Our committee favorably reported the bill in the 106th 
Congress, the 107th, and 108th and here we are now in the 109th 
Congress. I am hopeful and confident that our colleagues on 
this committee will once again support our efforts to extend 
the Federal policy of self-governance and self-determination to 
Native Hawaiians.
    Mr. Chairman, I want to begin by thanking Hawaii's Governor 
Linda Lingle for joining us this morning. Since her election in 
2002, I have worked closely with Governor Lingle and appreciate 
all that she has done in working to gain the support of the 
Bush administration for the enactment of this bill. Governor 
Lingle's support demonstrates an important facet of this bill, 
the fact that for the people of Hawaii addressing the condition 
of Hawaii's indigenous peoples, Native Hawaiians, is a non-
partisan priority.
    Anyone who has lived in Hawaii has experienced the aloha 
spirit, a special attitude which exudes happiness and 
generosity toward all. The aloha spirit for which the people of 
Hawaii is known is grounded in the culture and tradition of 
Hawaii's indigenous peoples. For that reason, Hawaii's 
citizens, whether or not they are Native Hawaiian, appreciate 
and support efforts to preserve the culture and tradition of 
Native Hawaiians. A large majority of Hawaii's residents 
support our efforts to enact this bill because it is the right 
thing to do for Native Hawaiians and for the people of Hawaii.
    The Native Hawaiian Government Reorganization Act does 
three things. It establishes the Office of Native Hawaiian 
Relations in the Department of the Interior to serve as a 
liaison between Native Hawaiians and the United States. It 
establishes a Native Hawaiian Interagency Coordinating Group to 
be composed of Federal officials from agencies which administer 
Native Hawaiian programs. Both of these provisions are intended 
to increase coordination between the Native Hawaiians and the 
Federal Government. Finally, the bill provides a process of 
reorganization of the Native Hawaiian governing entity.
    I am very proud of the fact that while the bill provides 
structure to the process, it also provides the Native Hawaiian 
community with the flexibility to truly reorganize the 
governing entity.
    Mr. Chairman, as you may recall, in 1993 we enacted 
legislation I drafted which is referred to as the Apology 
Resolution. The resolution apologized for the actions of U.S. 
agents in the overthrow of the Kingdom of Hawaii. The 
resolution also addressed a process of reconciliation between 
Native Hawaiians and the United States. The process of 
reconciliation involves an incremental dialog between Native 
Hawaiians and the United States to discuss many of the 
longstanding issues resulting from the overthrow of the Kingdom 
of Hawaii.
    My bill, Mr. Chairman, provides the structure for this 
process of reconciliation. The bill provides that following 
Federal recognition of the Native Hawaiian governing entity, 
the Federal and State Governments and the Native Hawaiian 
government will begin negotiations to address matters such as 
the transfer of lands, natural resources and other assets; the 
exercise of governmental authority over such lands and 
resources; the exercise of civil and criminal jurisdiction; and 
the exercise of governmental powers and authorities by the 
Native Hawaiian government. This, for me, Mr. Chairman, will be 
a large step in the process of reconciliation.
    For too long, the people of Hawaii have lacked a structured 
process to deal with these issues. This bill holds the promise 
for all of us in Hawaii to come to terms with Hawaii's unique 
and often painful history, to rectify inequities, and to move 
on as a State. It is for this reason that I have worked so hard 
over the past six years to enact this measure. I believe this 
bill is critical for Native Hawaiians who seek greater autonomy 
over the use of their lands and natural resources and programs 
and services.
    I also believe that this measure is just as important for 
non-Native Hawaiians as it provides us with a process to 
finally, after 112 years, begin to resolve the longstanding 
issues which resulted from what is considered by many to be the 
most poignant experiences in Hawaii's history, and that is the 
overthrow of the Kingdom of Hawaii.
    Our Native brothers and sisters in Alaska and in Indian 
country understand our efforts. I want to thank them. I really 
want to thank them for their unending support over the years. 
They have always, always been willing to work with us to ensure 
that we benefit from the lessons they have learned. We are 
gaining for it. For this generosity, we will always be indebted 
to them.
    I ask each of my colleagues here to stand with us as we 
work to extend the Federal policy of self-governance and self-
determination to Hawaii's indigenous peoples, an effort for 
those in Hawaii that erases the boundaries between political 
parties and differences.
    Thank you very much, Mr. Chairman, for this opportunity to 
make my statement.
    The Chairman. Thank you very much, Senator Akaka.
    We are always pleased to have our colleagues from the other 
side of the Capitol here to join us to make brief statements. 
We are very glad to see you. Honorable Faleomavaega, we are 
glad to see you again, and Congressman Case. Whoever wishes to 
go first, please proceed.

   STATEMENT OF HON. ED CASE, U.S. REPRESENTATIVE FROM HAWAII

    Mr. Case. Thank you, Mr. Chairman, Senator Dorgan, Senator 
Akaka, members of the committee. Good morning and aloha.
    I appreciate the opportunity to appear before you, as the 
proud representative of the congressional district with the 
most Native Hawaiians of any district in our country, in 
unqualified support of S. 147, the Native Hawaiian Government 
Reorganization Act, as well as its House counterpart, H.R. 309, 
introduced by me and my colleagues Mr. Abercrombie, Mr. 
Faleomavaega, and others.
    You have my written testimony, so allow me to make five 
brief points.
    First, please have no doubt that this is the most important 
single piece of legislation affecting both Native Hawaiians and 
all of our Hawaii to come before Congress since 1959.
    Second, that is because Federal recognition represents the 
long overdue, long-missing framework for Native Hawaiians to 
affirm and continue their longstanding relationship with the 
United States and achieve permanent and sustainable autonomy as 
exists for other indigenous peoples of our country.
    Third, this must be accomplished not only to assure the 
survival and prosperity of the Native Hawaiian people and 
culture wherever they may live, but because Native Hawaiians 
are the very core of my Hawaii, of our Hawaii itself. For that 
reason, Federal recognition is indispensable not only for 
Native Hawaiians, but for all of us in Hawaii.
    Fourth, we in Hawaii and beyond, with the other indigenous 
peoples of our country, have a broad-based consensus that this 
is what we want and need to do and must do.
    Fifth, this bill provides each and all of the United States 
and Native Hawaiians with a reasonable structure under which to 
negotiate the details that you, Mr. Chair, referred to, and 
affirm Federal recognition so that specific concerns can and, I 
have great confidence, ultimately will,be worked out.
    Mr. Chair and members, we ask you to let this bill go, to 
embrace it as we have, to do what is right and just and 
necessary for all of us.
    Mahalo.
    [Prepared statement of Representative Case appears in 
appendix.]
    The Chairman. Thank you very much, Congressman Case.

  STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, U.S. DELEGATE FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, Senator Dorgan, 
Senator Akaka, distinguished members of the committee.
    I think the last time, Mr. Chairman, we were at a hearing 
we held on Molokai some years ago with Senator Inouye. It is 
always good to know that now of your capacity as chairman of 
this important committee. I certainly want to express my 
deepest appreciation for your initiative and leadership in 
calling this hearing this morning.
    The Chairman. Thank you.
    Mr. Faleomavaega. Mr. Chairman, as an original cosponsor of 
H.R. 309, the companion bill to S. 147, I want to state my 
absolute support of S. 147, the Native Hawaiian Government 
Reorganization Act of 2005, expressing the policy of the United 
States regarding the United States' relationship with Native 
Hawaiians and providing a process for the recognition by the 
United States of the Native Hawaiian governing entity.
    I would be remiss if I do not express my appreciation to 
the Senior Senator from Hawaii, Senator Inouye, and of course 
Senator Akaka, Congressman Abercrombie, and Congressman Case, 
members of the Hawaii congressional delegation. I am very happy 
also to see the Governor, Linda Lingle, here with us, and my 
good sister Haunani Apoliona as chairman of the Office of 
Hawaiian Affairs.
    Mr. Chairman, this bill goes to the very heart of our 
responsibility to protect the indigenous people who inhabit 
what is now the United States. As relative newcomers to this 
land where we have established this great Nation, we accepted 
responsibility for the care and protection of those who lived 
here before we arrived in the new world. The seriousness of 
this responsibility is borne out in the countless laws that 
Congress has enacted over the years for the benefit of Native 
Americans and the volumes of works addressing Indian law, the 
Supreme Court cases addressing native issues, and even now at 
the recent opening here in our Nation's Capital of the National 
Museum of the American Indian.
    Some have expressed concern that we should not legislate 
for Native Hawaiians because they are not American Indians. In 
my readings, Mr. Chairman, of the U.S. Supreme Court Chief 
Justice John Marshall, pretty well defined the term ``Indian'' 
to include all of the original inhabitants or natives who 
occupied America when it was allegedly discovered by the great 
nations of Europe. Just as Marshall further defined ``tribe'' 
to mean a people distinct from others, a distinct community.
    As an example, Alaska Natives are proof of the broad 
definition allowing indigenous groups to be recognized, even 
those who are culturally and genealogically distinct from the 
narrow conception of American Indian or tribe.
    I submit, Mr. Chairman, I honestly believe the Native 
Hawaiians also meet this definition. They are indigenous, 
aboriginal people living within what are now the borders of the 
United States. Native Hawaiians are estimated to have arrived 
on the Hawaiian Islands as early as 300 A.D., long before the 
new world was allegedly, again Mr. Chairman, discovered by 
Christopher Columbus.
    As you are well aware, Mr. Chairman, Native Hawaiians are 
also collectively categorized by anthropologists and scientists 
as Polynesians. I might also note, Mr. Chairman, that the 
famous British explorer Captain James Cook did not discover 
many of the Pacific Islands settled by Polynesians, primarily 
because he was accompanied by a Polynesian Tahitian chief and 
navigator by the name of Tupai'a, and told Captain Cook the 
locations of these islands thousands of miles apart. What was 
surprising to Captain Cook was the similarities of the culture 
and the people, the language very closely related, whether they 
be the Maoris in New Zealand or the Tongans or the Samoans or 
the Tahitians. Hawaiians were the same people. Cook later 
described it as the largest nation on earth, from Hawaii to New 
Zealand and as far east as Rapanui or Easter Island.
    Time will not permit me to discuss the origins of the 
Polynesian people, Mr. Chairman, but suffice it to say, Mr. 
Chairman, that the blood that flows in the veins of that good 
gentleman, Senator Akaka, is the same blood that flows in my 
veins.
    History has not been kind to my Native Hawaiian cousins for 
the past 110 years or so. But years before that, for almost 
2,000 years, there were constant rivalries and wars among the 
ruling chiefs of these islands. It was not until the 1750's, as 
it was prophesied, that a great warrior chief that would be 
known as the killer of chiefs, and that a fleet of 900 war 
canoes of some 20,000 warriors, was able to conquer the other 
chiefs and united the islands under one rule. This famous 
chief, of course, was Kamehameha. Kamehameha ruled the Hawaiian 
Kingdom for almost 20 years, and started a ruling dynasty that 
almost lasted 100 years. To this day, no other name is revered 
more by the Native Hawaiians than their King Kamehameha.
    Mr. Chairman, when most people think of Hawaii, they think 
of honeymoons, grass huts, and tropical paradise, and think 
that natives still live in grass huts. Few are aware of the 
proud and painful history of some 300,000 Native Hawaiian 
people. Too few are aware of Hawaii as an independent sovereign 
country, a country that was illegally overthrown in 1893 by a 
U.S. minister to Hawaii using U.S. Marines to support the 
agenda of a small group of U.S. businessmen.
    Mr. Chairman, I know the time is running. I just want to 
state also, some of my colleagues have suggested at this time 
to move on because Native Hawaiians have been absorbed into the 
larger U.S. culture and no longer need special consideration. 
The evidence suggests the contrary, Mr. Chairman. One look at 
the demographic profile of the Native Hawaiian community will 
reveal that Native Hawaiians are still suffering today from the 
loss of their lands and the damage to their traditional ways of 
life. The Native Hawaiian population is clearly suffering from 
poor health, poor living conditions, poor education, poor 
social conditions at a far higher rate than in the general 
population.
    Native Hawaiians lag far behind the general population of 
Hawaii in virtually every category of well-being, and are 
disproportionately represented in nearly every negative 
category.
    Mr. Chairman, one point I would like to emphasize is that 
the passage of this bill will involve no significant costs to 
the Federal Government. In fact, there is a specific provision 
in the proposed bill that excludes any funding that will go 
directly to the Bureau of Indian Affairs does not go into any 
consideration to be given for the needs of Native Hawaiians. 
The Congressional Budget Office estimates that the outlays to 
open the Office of Hawaiian Relations within the Department of 
the Interior would cost only about $500,000.
    We have an opportunity here, Mr. Chairman, to right a 
longstanding injustice that has been perpetuated on the Native 
Hawaiian people. We have a duty to protect this group of 
indigenous people who have suffered terribly as a result of 
their relationship with the United States. The solution offered 
in this bill is comprehensive and addresses the needs of the 
Native Hawaiian community. This bill will restore a measure of 
well-deserved autonomy to the Native Hawaiian people and 
provide a foundation for the reconciliation process.
    Mr. Chairman, I spent many years in Hawaii, and my 
affection for the Hawaiian people is well known. Despite all 
adversity, the Native Hawaiian culture remains rich and alive. 
The spirit of Aloha that emanates from these people is what 
makes the State of Hawaii very unique. The Native Hawaiian 
people have waited patiently for the day when we here in 
Congress would consider their case and do the right thing.
    I submit that today is that day. The right thing is for us 
to pass the Native Hawaiian Reorganization Act of 2005 and to 
ensure the protection and the perpetuation of these magnificent 
people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I thank our colleagues for coming over and joining us 
today. Are there any questions?
    Senator Dorgan. Mr. Chairman, I do not have any questions. 
I thought both of you did an excellent job in laying out your 
positions and being supportive of the legislation. Thank you 
very much.
    The Chairman. Thank you.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
say thank you to our delegation. As was reported here, Senator 
Inouye is not able to be here. And also, Congressman 
Abercrombie is not able to be here because of the weather. I 
wanted you to know that the delegation fully supports this 
bill. I want to thank our chairman for all he has done this 
far. I want to thank our Ranking Member, Byron Dorgan, for his 
support as well.
    Thank you very much.
    The Chairman. Thank you very much. Thank you for coming.
    Our next witness is Linda Lingle, who is the Governor of 
the State of Hawaii. Welcome, Governor, thank you for being 
with us this morning. Welcome Governor, please proceed.

    STATEMENT OF HON. LINDA LINGLE, GOVERNOR, FROM HAWAII, 
         ACCOMPANIED BY MARK BENNETT, ATTORNEY GENERAL

    Ms. Lingle. Good morning, Mr. Chairman, Vice Chairman 
Dorgan, and Senator Akaka.
    I am here today on behalf of the people of the State of 
Hawaii. I want to tell you that we are grateful and humbled 
that in the press of business that is facing this committee and 
this U.S. Senate, that you would set time aside to hear a bill 
that is critically important to the people in our State.
    Mr. Chairman, because I know you are a person who likes to 
get to the heart of things quickly, let me say what I believe 
this bill is about at its essence. This bill is simply about 
equality and equal treatment under the law.
    There are three groups of indigenous people in America. Two 
of the groups have been recognized by the American Government, 
and one has not. The failure to pass this bill would continue 
the discrimination that exists against the Native Hawaiian 
peoples not being included in the recognition that the other 
two Native groups have.
    I think the bill does four things that are important to the 
Native Hawaiian people and to the State of Hawaii. First of 
all, the bill would promote self-sufficiency for Native 
Hawaiian people, and bring about greater economic opportunity 
for them. Native Hawaiians continue to rely too heavily on 
State and Federal programs and by having a Native Hawaiian 
governing entity, it would allow them to move forward with 
independence.
    It would also provide greater accountability to this U.S. 
Senate and to the State of Hawaii for the Government programs 
that do exist for Native Hawaiians. It would promote this 
accountability because you would have all Government programs 
that benefit Native Hawaiians now coming under one entity, 
instead of being dispersed the way they are now. There have 
been over 150 pieces of legislation of benefit to Native 
Hawaiians. I believe there should be and needs to be greater 
accountability for these programs and more effective use of the 
programs. I believe the creation of this entity would help to 
bring about that accountability and efficiency.
    I also believe that S. 147 is our best opportunity to 
preserve the Native Hawaiian culture, which is the foundation 
of our being in Hawaii. It is the essence of who we are as a 
people and a State. It is also an economic imperative to our 
State because our State's largest industry, the tourist 
industry, is really dependent on the preservation of the Native 
Hawaiian culture.
    Finally, S. 147 would protect the existing programs against 
the legal attacks that have become constant against programs 
that benefit Native Hawaiians. I want to focus on one of them 
in particular that has been under attack and remains under 
attack in the court system. That is a program that was set up 
by this U.S. Senate in 1920. In 1920, this U.S. Senate set 
aside 200,000 acres of land to benefit Native Hawaiians. It was 
the right of the Senate to do that and it was the right thing 
for the Senate to do. But today, that program is being 
challenged in court and S. 147 would allow us to protect the 
Hawaiian Homes Program as well as the other programs that 
benefit Native Hawaiians.
    I do want to mention that it has been a long road on this 
bill, as has been outlined by Senator Akaka and others, but I 
believe the time has been well spent because I believe the bill 
today is something that a legal challenge can meet and any 
social concern can meet any objection that may have arisen in 
the past.
    I want to make reference to one part of the bill that is 
different than the part I have testified on in the past. That 
was the inclusion of a provision that says that the State 
legislature, the State of Hawaii, the U.S. Congress, and the 
new governing entity would have to come together if there were 
going to be changes in civil or criminal jurisdiction, land 
use, taxation, zoning, or other issues that would affect the 
entity. So for those who were fearful that this would bring 
about some of the same issues that have arisen with the 
American Indians, I believe the change in the legislation has 
finally and completely addressed that issue.
    Mr. Chairman, I see this bill as a unifying force for my 
State. Every elected official in the State of Hawaii supports 
this bill, both Republican and Democrat. The majority of people 
of every ethnic group support this bill. The business community 
supports this bill, including the State's two major banks. I 
believe it is because they see this as a positive force for the 
future strength of our economy and our social fabric.
    Again, I want to thank you for scheduling this hearing, for 
keeping an open mind on a subject that is very important to us. 
I really want to thank the committee members for sitting today, 
listening to the testimony, and for giving us the courtesy of 
hearing a bill that may not be important at the national level, 
but is to the people in our State.
    Thank you very much, Senator.
    [Statement of Governor Lingle appears in appendix.]
    The Chairman. Thank you very much, Governor Lingle. And 
thank you for your steadfast leadership and commitment to 
Native Hawaiians. We are very pleased that you could appear 
here today.
    Picking up on a couple of your comments that you just made, 
under this proposal, if Native Hawaiians wanted to establish a 
gaming operation, that would require the agreement of the State 
legislature and Congress, as well as the Native Hawaiians 
themselves?
    Ms. Lingle. I would ask the lawyers in the room. My 
attorney general is here and can answer that question. I will 
ask him to do that. I will state for you clearly from a policy 
point of view, Senator, our entire congressional delegation 
opposes any legalized gambling in our State. We are one of two 
States with no form of legalized gambling. I oppose it. I will 
let the legal question be answered.
    The Chairman. Thank you. My point is that there are a lot 
of States where the legislatures have opposed gaming 
operations, and they have been set up. But go ahead.
    Ms. Lingle. This is Attorney General Mark Bennett.
    The Chairman. Go ahead, sir.
    Mr. Bennett. Senator, the bill itself says that there ought 
to be and shall be no gambling pursuant to this bill. In 
addition, it would certainly require at the very least an act 
of Congress to allow gambling if this occurred. But we believe 
that the bill by itself provides no gambling, but there would 
be no possibility of that without a further act of the 
Congress.
    The Chairman. Thank you very much.
    Governor, after getting into this issue a little more, it 
seems to me that your sense of urgency is dictated by some of 
the constitutional challenges that have been brought against 
programs that are administered by the State of Hawaii. What 
other programs would be in danger here if S. 147 were not 
enacted?
    Ms. Lingle. The most critical program right now is one that 
is pending in the Ninth Circuit. It involves the Department of 
Hawaiian Homelands. There are 200,000 acres of land that are 
home to 7,000 families, 28,000 people on those lands. If there 
was a successful legal challenge in my State, it would create 
social disruption because people would no longer have the right 
to those lands. So that is, from my perspective, right now the 
most pressing issue.
    If we are able to get S. 147 adopted, we will use this as a 
clear basis for our argument that this is not a racial 
preference, but these lands were set aside because there is a 
trust, a political relationship between the Native Hawaiian 
people and the American Government.
    The Chairman. Has there already been court decisions which 
have impacted the status of Native Hawaiians?
    Mr. Bennett. There was a lawsuit challenging Native 
Hawaiian programs that was dismissed, I would say, on technical 
grounds in the District Court, but that is up on appeal right 
now in the Ninth Circuit. While we believe that we can defend 
these lawsuits on the current state of affairs, if this bill 
were to pass, we believe that this would provide a clear 
mandate once and for all for the dismissal of these lawsuits. 
We certainly are greatly concerned that without this bill at 
some point, these lawsuits, either the current one or a future 
one, may succeed in invalidating all programs that benefit 
Native Hawaiians.
    The Chairman. Governor Lingle, do you have an opinion on 
how well, since the time of statehood, the State of Hawaii has 
managed the ceded land trust for the benefit of Native 
Hawaiians?
    Ms. Lingle. I think recently we are doing an outstanding 
job.
    The Chairman. Since you were inaugurated? [Laughter.]
    Ms. Lingle. I think, sir, with 85 years passing since the 
Hawaiian Homes Trust was set up, we could have done a much 
better job. We have an accelerated program that we have put 
forward to put thousands of additional families onto this land. 
We think, again, it has been, as many other things that relate 
to Native Hawaiians and many other programs, it has simply been 
too long in coming. It is the right thing to do to move forward 
in a much faster pace. So I think we are on the right track 
now, and this will help to keep us there.
    The Chairman. I thank you. Given the obvious urgency of 
this legislation, I think you deserve a rapid decision by the 
Congress of the United States on this issue. I would intend to 
hold a vote very soon in the committee so that we can move this 
legislation forward.
    Senator Dorgan.
    Senator Dorgan. Governor, thank you for your testimony.
    We had asked the Administration to be present to testify 
today and they chose not to. Have you had any conversations 
with anyone in the Administration about whether they are 
intending to support or will support this legislation?
    Ms. Lingle. I have had many conversations with people in 
the Administration who are all very focused on this issue. They 
are briefed on it, and they are very anxious for the U.S. 
Senate and the U.S. House to take action on S. 147.
    Senator Dorgan. Being focused and briefed is admirable, if 
that is what they are, but I am asking whether they will be 
supportive or be opposing the legislation. Again, we had asked 
for representatives of the Administration to testify. I am not 
sure why they elected not to at the moment, but do you have any 
sense of whether their weighing on this will be in support of 
the legislation or in opposition?
    Ms. Lingle. Senator, I am optimistic that if the Senate 
passes this and the House passes it, that they would be 
supportive. I am optimistic of that.
    Senator Dorgan. All right. Well, often what we do is 
attempt to ask the Administration their position before we take 
action. It is not dispositive in terms of what we do, but I 
would hope as well if we go through this process not hearing 
from them, that at the end of the day if we have passed this 
legislation, they would be supportive. But I would also 
encourage you and others to continue to see if we could enlist 
their participation and evaluation concurrent with the 
consideration by Congress so that we could get their views on 
it. I think that would be helpful.
    Ms. Lingle. Senator, you have my word that I will continue 
to encourage them to be supportive of S. 147. I might say, I 
wish my legislature at home was concerned about what I thought 
about measures they were moving forward. This is something new 
to me. [Laughter.]
    I really am optimistic that if this can get through, that 
they will be supportive.
    Senator Dorgan. It is not new here to ask the 
Administration to share their views with this committee. That 
is a rather time-honored tradition.
    Let me again thank you for your testimony. You produced 
very strong testimony, as I expected. My colleagues, Senator 
Inouye and Senator Akaka, both assured us that you would be 
providing some very compelling testimony. I think your presence 
here today is very, very helpful to this committee. Your 
delegation, from the Governor and the State legislature, and 
virtually all of the official representatives of Hawaii speak 
with one voice on these issues. We appreciate very much your 
leadership, Governor.
    Ms. Lingle. Thank you, Senator.
    The Chairman. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to take the time to thank the people from Hawaii who 
are here and who have such a deep interest in this bill and the 
passage of this bill. I want to thank all of you for being 
here. There are some organizations here as well. I want to 
particularly thank the Governor for your efforts on this bill, 
and in particular to thank Mark Bennett, the attorney general, 
as well as Micah Kane, for their work on this bill. I really 
appreciate their work. They work with my staff and our staffs 
as well on this bill.
    This has happened because I believe this is so critical for 
the people of Hawaii. When my colleagues ask me about the 
importance of this bill, I explain my views to them as a Native 
Hawaiian. I am hoping that you, Governor, as a non-Native 
Hawaiian, who supports the bill as much as I do, can provide 
some insight as to why non-Native Hawaiian residents in Hawaii 
support this bill.
    Ms. Lingle. Senator, I think again at its essence it is 
because it is the right thing to do and because the people in 
our State are probably a lot like me. Many of us came from 
other places. Maybe we came from the mainland United States or 
we came from the Philippines or we came from China or Vietnam 
or other places. We were taken in, literally taken in as a part 
of the family, the 'ohana, by the Hawaiian people. For us, this 
is a privilege to come here to talk about this issue with 
people who maybe do not understand how accepted we have been.
    For someone like myself to come into the State, and as you 
know I lived on a very small island for many years, that is, as 
a percentage of its population, besides Niihau which people 
cannot just go to, it is the most Native Hawaiian Island. It 
was my introduction to the people and the State of Hawaii. It 
has made me who I am today. I think everyone who is non-
Hawaiian in our State would say that they are the person they 
are because of the culture of our State. It is so different, so 
unique, and that culture is based on the culture of the Native 
Hawaiian people. It is just such a privilege to be here to be 
able to share how important this is to our State. It is not 
just important to Native Hawaiians. It is important to who we 
are as a people, as a society. As I said, this is a unifying 
force for us, to finally be able to express gratitude this way 
to the Native Hawaiian people for what they have given to us, 
and I believe, what they have given to the country and to the 
world.
    Senator Akaka. I thank you very much for your support of 
this bill, Governor.
    Ms. Lingle. Thank you, Senator.
    Senator Akaka. Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    Thank you, Governor. Thank you for coming this long way. I 
am sorry that we have not scheduled a hearing on this important 
issue in Hawaii, but maybe we can consider that.
    Ms. Lingle. We look forward to hosting you, Senator.
    The Chairman. Thank you very much, Governor.
    I thank the attorney general also for being here. Thank 
you, sir.
    Our next panel is, maybe Senator Akaka can pronounce.
    Senator Akaka. Yes; Haunani Apoliona.
    The Chairman. She is the chairperson of the Board of 
Trustees of the Office of Hawaiian Affairs; Tex Hall, 
president, National Congress of American Indians; and Jade 
Danner, director, Government Affairs and Community 
Consultation, Council for Native Hawaiian Advancement.
    Ms. Apoliona, would you correct my pronunciation again, 
please?
    Ms. Apoliona. It is Apoliona.
    The Chairman. Apoliona. Thank you very much. I apologize 
for the mispronunciation. Thank you very much. We will begin 
with you. Thank you for coming.

STATEMENT OF HAUNANI APOLIONA, CHAIRPERSON, BOARD OF TRUSTEES, 
    OFFICE OF HAWAIIAN AFFAIRS, ACCOMPANIED BY MICAH KANE, 
              CHAIRMAN, HAWAIIAN HOMES COMMISSION

    Ms. Apoliona. [Greeting and song in native tongue.]
    The Chairman. I am sure you are going to explain to me what 
that was all about. [Laughter.]
    Ms. Apoliona. Thank you, Senator. The translations lay 
before you. In our manner of welcoming and greeting, we would 
like to share a lei with you as I begin my testimony.
    The Chairman. We are going to have to have you here more 
often. [Laughter.]
    Please proceed.
    Ms. Apoliona. [Statement in native tongue.] To the leaders 
and members of this Committee on Indian Affairs of the U.S. 
Congress, greetings, my name is Haunani Apoliona. I am 
chairperson of the Board of Trustees for the Office of Hawaiian 
Affairs, a body corporate created by the Hawaii State 
constitution and statute. I would like to take 1 moment, Mr. 
Chairman and members, to introduce other trustees of the Office 
of Hawaiian Affairs who have traveled this long way. As I 
introduce them, I would ask them to rise: Trustee Rowena Akana, 
Trustee Dante Carpenter, Trustee Boyd Mossman, Trustee Oswald 
Stender, and Trustee John Waihe'e, IV.
    The Chairman. You are welcome here today. Thank you.
    Ms. Apoliona. I would also, Mr. Chairman, like to introduce 
sitting to my left, Antoinette Lee, president of the 
Association of Hawaiian Civic Clubs, 51 clubs located 
throughout Hawaii and this Nation, the oldest community-based 
grassroots, non-government Native Hawaiian organization founded 
in 1918 by Delegate to Congress Jonah Kuhio Kalanianaole. Ms. 
Lee hopes to provide a few comments following my testimony, and 
she has provided her full text to the committee.
    The Chairman. Welcome.
    Ms. Apoliona. The mission of the Office of Hawaiian Affairs 
is to protect and assist Native Hawaiian people and to protect 
our environmental and other resources, and by doing so to 
perpetuate our threatened traditional culture. Perhaps most 
importantly, OHA has worked to bring meaningful self-government 
to the Native Hawaiian people who are the only indigenous group 
in the United States to whom Congress has not fully afforded 
that fundamental right.
    I testify today in support of enactment of S. 147. There 
are three indigenous populations within the United States: 
American Indians in the lower 48 States; Eskimos, Aleuts, and 
other Native groups in Alaska; and Native Hawaiians. The 
governing entities of American Indians and Alaska Native have 
both been recognized by Congress. This recognition extends to 
indigenous people the ability to govern their own internal 
affairs in a manner appropriate to their cultures and 
traditions.
    Congress acted in 1934 by passing the Indian Reorganization 
Act, and in 1971 by passing the Alaska Native Claims Settlement 
Act. In this legislation, S. 147, as Hawaiians, we seek only 
what long has been granted this Nation's other indigenous 
peoples.
    In my 20-page written testimony, which with your permission 
I ask be included in full in the record of this proceeding.
    The Chairman. Without objection.
    Ms. Apoliona. I have provided detailed information about 
the history of the Kingdom of Hawaii, about the United States' 
role in the forcible overthrow of our Native government; about 
our need for a reorganized governmental entity to allow us a 
measure of self-government, and about the need for Federal 
legislation authorizing our reorganization. Since distinguished 
members of our congressional delegation and of course our 
distinguished Governor already have spoken to these points, I 
wish to use my time this morning to address questions that have 
been raised to us over the last several weeks.
    Let me first address the impact of S. 147 on the Bureau of 
Indian Affairs' budget. Regarding the impact of the enactment 
of S. 147 would have on the Bureau of Indian Affairs' budget, I 
note that we, as Native Hawaiians, have not asked for, and S. 
147 does not provide, the Native Hawaiian governing entity with 
access to the Federal funding set-aside for American Indian 
tribes.
    In fact, S. 147 is specifically structured to prevent that 
from occurring. We think section 7 and 9 of the bill make clear 
that enactment of S. 147 will not have an impact on the 
Bureau's budget or on money generally appropriated for Indian 
tribes. We reiterate and we stand by our commitment not to 
adversely impact our American Indian 'ohana with this 
legislation.
    Now, let me address the Federal appropriations currently 
provided to Native Hawaiians. Native Hawaiians already receive 
Federal funding of our own through various non-BIA programs for 
such matters as Native Hawaiian health, education, housing, 
economic development, historic preservation, culture and elder 
and vocational services.
    Federal recognition will not make Native Hawaiians eligible 
for the Federal programs and services established for our 
Indian and Alaska Native 'ohana. Through Federal recognition, 
we are not members of tribes of the lower 48 States, nor 
members of corporations, tribes, or villages of Alaska. We are 
Native Hawaiians.
    For further clarity on the matter of Federal 
appropriations, the Congressional Budget Office, which studied 
an earlier nearly identical version of S. 147 in the 108th 
Congress, estimated that, quote, ``implementing H.R. 4282 would 
cost nearly $1 million annually in fiscal years 2005-07.''
    The Chairman. Ma'am, you are going to have to summarize 
some of your testimony. We have three additional witnesses and 
then questions from the members of the panel. I appreciate it, 
but you are going to have to summarize your testimony. We 
usually give 5 minutes. We will give you a lot longer.
    Ms. Apoliona. S. 147 does not allow gaming. It does not 
provide for that in the language of the bill. And as was stated 
earlier, the State of Hawaii is one of two States, the other 
being Utah, that does not allow gaming or gambling.
    It is time to restore the Native Hawaiian self-governing 
status, and we ask that this committee expeditiously move this 
legislation to the floor of the Senate. Native Hawaiians are 
hopeful that this Congress will enact S. 147, and thereby take 
another step toward reconciliation.
    I appear before you as the elected trustee of the Office of 
Hawaiian Affairs, as one of nine duly elected by all citizens 
of Hawaii to represent the interests of the Hawaiian people. I 
am Native Hawaiian, and I thank you for your time.
    [Prepared statement of Ms. Apoliona appears in appendix.]
    The Chairman. Thank you very much.
    Tex Hall, welcome back before the committee.

STATEMENT OF TEX HALL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
    INDIANS, ACCOMPANIED BY JULIE KITKA, PRESIDENT, ALASKA 
                     FEDERATION OF NATIVES

    Mr. Hall. [Greeting in native tongue.] Aloha, and good 
morning to Chairman McCain, Vice Chairman Dorgan, Senator 
Akaka, my good friend Senator Inouye, and other members of the 
committee.
    I am Tex Hall, president of the National Congress of 
American Indians. I am joined by Julie Kitka, the president of 
the Alaska Federation of Natives.
    The Chairman. Welcome.
    Mr. Hall. As the committee is aware, NCAI is the largest 
coalition of tribal governments in the United States, defending 
tribal government treaty rights and the Federal trust 
responsibility since 1944. So on behalf of NCAI and the Alaska 
Federation of Natives, we join in strong support of S. 147, the 
Native Hawaiian Government Reorganization Act.
    NCAI first offered testimony in support of Native Hawaiian 
sovereignty and self-determination in 2000, a position that has 
not been changed in our recent resolutions, as attached, and we 
would like to include those for the record, Mr. Chairman.
    The Chairman. Thank you.
    [Referenced documents appear in appendix.]
    Mr. Hall. Native Hawaiians are no different than any of our 
other Nation's indigenous groups. Native Hawaiians lived on the 
land and governed their own affairs for thousands of years 
before European contact. For many years, the United States and 
nations all over the world recognized the Government of Native 
Hawaiians as a sovereign political entity and signed treaties 
with them.
    Since the illegitimate overthrow of the Hawaiian Kingdom, 
Native Hawaiians have suffered more than a century of 
injustice, including the neglect and abuse of their 
entitlements and the violation of their basic civil rights.
    So on behalf of NCAI's member tribes, I am here today to 
announce that NCAI believes that the Federal Government must 
correct this injustice and formally recognize the inherent 
right of Native Hawaiians to self-governance.
    Passage of this bill is also timely because since the U.S. 
Supreme Court decided the Rice case in 2000, there has been a 
flood of non-natives who run for office positions in the Office 
of Hawaiian Affairs, and there are similar lawsuits challenging 
education, housing, land and other programs intended to benefit 
Native Hawaiians.
    So before I conclude my testimony, if also I could briefly 
address one specific issue concerning the bill. When the bill 
was first introduced in 2000, many people questioned the 
possible effect that Federal recognition of Native Hawaiian 
Government could have on funding for Indian programs. NCAI 
points out that Senator Inouye has promised that Native 
Hawaiian programs will never be funded at the expense of Indian 
programs, and that has always been the case.
    Section 9 of this bill provides that any appropriations for 
Native Hawaiians are to be funded independently of the Bureau 
of Indian Affairs. NCAI would request that the committee add 
clarifying language to include not just BIA appropriations, but 
also Indian Health Service and other appropriations for 
services provided to Indians by the United States.
    On a personal note, I had a chance and honor to make 
several visits to many of my friends in the room here today, 
and have developed a strong friendship and relationship with 
the Native Hawaiian people. In North Dakota, if you wear a 
cowboy hat and you are not a real cowboy, they say that you are 
all hat and no cattle. [Laughter.]
    I have actually met real Native Hawaiians and real Native 
Hawaiian cowboys. So I am going to be asked to participate in a 
real Native Hawaiian rodeo coming up real soon, and I look 
forward to not losing so much over there, because I will 
probably be called ``all hat and no cattle'' if I lose. 
[Laughter.]
    So Mr. Chairman, that concludes my testimony, and again, we 
are in strong support of the passage of S. 147.
    [Prepared statement of Mr. Hall appears in appendix.]
    The Chairman. Thank you very much, Tex. I appreciate your 
appearance again before this committee.
    Ms. Danner, welcome.

 STATEMENT OF JADE DANNER, DIRECTOR OF GOVERNMENT AFFAIRS AND 
COMMUNITY CONSULTATION, COUNCIL FOR NATIVE HAWAIIAN ADVANCEMENT

    Ms. Danner. Thank you, Mr. Chairman. Aloha, Honorable 
Chairman McCain, Vice Chairman Dorgan, and esteemed members of 
the committee on Indian Affairs. My name is Jade Danner. I am 
the director of Government Affairs and Community Consultation 
for the Council for Native Hawaiian Advancement.
    It is an honor to testify before you here today on this 
important legislation for our communities. I apologize for my 
voice trembling, but this is such an important issue for our 
community. With me today is Tony Sang, who is the chairman of 
the State Council of Hawaiian Homestead Associations. We are 
very lucky to have him as a member of our board of directors.
    The Chairman. Welcome, sir.
    Ms. Danner. Mr. Sang's organization represents 24 homestead 
communities and over 30,000 Native Hawaiian people living on 
Hawaiian Home Lands, communities that were created by the 
passage of the Hawaiian Homes Commission Act in 1920. These 
communities have played a significant role in bringing our 
people back from the very brink of extinction. SCHHA has asked 
me to speak on their behalf today.
    I was born on the Navajo and Hopi Reservations in the 
community of Tuba City, AZ, from your neck of the woods, 
Senator. I have lived 25 years among the Inupiat Eskimos in 
Barrow, AK. I am Native Hawaiian and I now live in Hawaiian 
Home Lands in Waimanalo on Oahu. I have witnessed first-hand 
the power of the transformation that can occur in Native 
communities on the basis of Federal recognition of a self-
governing entity and self-determination.
    The Council for Native Hawaiian Advancement is a member-
based non-profit organization aimed at improving access to 
information and resources by the Native Hawaiian community and 
the organizations that serve it. We organize the largest annual 
conference dedicated to Native Hawaiian community development.
    The Governor has made some strong comments. One of the 
things that she commented on was the vital need for our culture 
in the State's economy. CNHA has looked at the economic impact 
of just our programs and what they bring to the State of 
Hawaii. While $59 million goes toward direct benefits to Native 
Hawaiians, it generates $147 million in economic production for 
all of Hawaii's people. So when we build a house on Hawaiian 
Home Lands for Native Hawaiians to live in, those houses are 
contributing jobs to non-Natives and Natives alike, and that is 
an important thing, I think, to note.
    From our consultation with the Native Hawaiian community, 
there is clear consensus about overwhelming support for the 
passage of this bill, and for recognizing a Native Hawaiian 
Government as the vehicle to enhance self-determination for 
Native Hawaiians. Several public laws already authorize 
programming to address Native Hawaiian conditions. Private 
beneficial trusts also contribute to our well-being. We have 
resources, Senators.
    But as the American Indian and Alaska Native experience has 
demonstrated, resources are not enough. They are not enough 
alone. It is vital for our survival as a distinct thread in the 
human fabric that we have autonomy in our internal affairs, 
that we are empowered in meaningful ways to make our own 
solutions and utilize our resources in a way that we see fit.
    The Apology Resolution provides for an accurate account of 
Hawaii's history and its entry into the Union and commits the 
United States to commencing the much-needed process of 
reconciliation. It is a history that I will not belabor here. 
But suffice it to say that our experience and circumstance is 
no different than many other Native American peoples. As a 
result, our current conditions are much the same.
    Despite these adversities, our hope and our faith in the 
American system remains. Like other Native Americans, we 
continue to honor and fulfill our responsibilities as American 
citizens. Many of our sons and daughters have committed their 
whole lives to military service, some rising to the highest 
ranks. I am proud to say that 10 members of the Hawaii State 
Legislature, a significant portion of Governor Lingle's 
administration, including the Lieutenant Governor, and of 
course Senator Akaka, are all Native Hawaiian.
    We understand as Hawaiians that in addition to these 
individual responsibilities as Americans, we have a collective 
responsibility to perpetuate Native Hawaiian culture, language, 
knowledge and traditions. It is this obligation that we need 
this committee and this body's help to fulfill.
    We need self-governance to formulate and implement our own 
solutions and to hold ourselves accountable to those results. 
We need it because we do not exist anywhere else. If we are 
denied self-determination and self-governance in Hawaii, in our 
motherland, we are sure to go the way of so many other Natives 
indigenous to these shores and now extinct. We will be a 
memory, and that will be the saddest story in this great 
Nation's history. We will be lost to the world.
    We do not seek recognition of our Native government in 
order to do gaming, Senators, and we are not interested in 
eating out of the Indian pot. We seek passage of this bill for 
a more basic reason. We need to be at the helm of our own 
future. We want the United States to honor its trust 
relationship to us, and we want to engage fully in the policy 
of self-determination and self-governance.
    We want to honor our obligation to our ancestors, whose 
sole existence was to bring us forward, just as we exist to 
bring future generations of Hawaiians forward. Humbly, we ask 
the members of Congress to pass this legislation because it 
empowers us to hold our own destiny in our own hands. We ask 
that you deal with us in a manner that is fair and just.
    Mahalo for this opportunity to address the committee on 
this important legislation. The Council for Native Hawaiian 
Advancement looks forward to working with the committee on 
passage of this bill and on future efforts towards 
reconciliation with the Native Hawaiian people.
    Thank you.
    [Prepared statement of Ms. Danner appears in appendix.]
    The Chairman. Thank you very much, Ms. Danner.
    What are your views on how well the State of Hawaii has 
carried out its responsibilities of administering the ceded 
lands for the benefits of Native Hawaiians?
    Ms. Danner. I would agree with the Governor's assertion 
that in recent years, maybe the last 10 to 15 years, there has 
been a much better effort toward managing those resources. But 
in truth, that is one of the fundamental reasons I believe that 
we need to control those assets, because we need to be able to 
hold ourselves accountable from within our community, and not 
knocking on the door of the State government who is our 
guardian. They have done a tremendous job in recent years.
    The Chairman. Thank you.
    President Hall, does the majority of Indian country support 
this legislation?
    Mr. Hall. Yes; they do, Mr. Chairman. It was discussed at 
length in our recent resolution which is attached to my 
testimony, but it was unanimously passed at the NCAI annual 
convention, Mr. Chairman, in support.
    The Chairman. Thank you.
    Chairwoman Apoliona, how much money does the Office of 
Hawaiian Affairs currently receive from the State of Hawaii for 
the benefit of Native Hawaiians?
    Ms. Apoliona. From our legislature, we receive 
approximately $2 million a year.
    The Chairman. $2 million a year.
    Ms. Apoliona. And from the revenues of ceded lands, we 
receive approximately $9 million a year.
    The Chairman. Does the airport in Honolulu sit on----
    Ms. Apoliona. Yes; it does, Senator.
    The Chairman. And do you get any revenue from that?
    Ms. Apoliona. At the current time, the Native Hawaiian 
Trust of the Office of Hawaiian Affairs does not receive 
revenues from those ceded lands of the airport, although the 
obligation still remains.
    The Chairman. Why do you think that is?
    Ms. Apoliona. A couple of years ago, there was legislation 
passed here in the U.S. Congress that reinforced the Department 
of Transportation's request that revenues not be paid from the 
airport trust revenues that are derived from the airports in 
Hawaii. However, the obligation still remains for the payment 
of a 20-percent pro-rata share to the Native Hawaiian Trust 
from those lands, from use of those lands.
    The Chairman. But that is not the case?
    Ms. Apoliona. The congressional act prohibits the State of 
Hawaii from paying the pro-rata share from the airport trust 
funds.
    The Chairman. How many people currently qualify as 
homesteaders under the Hawaiian Homes Commission Act?
    Ms. Apoliona. I would like to turn to Mr. Micah Kane.
    Mr. Kane. Chairman McCain, my name is Micah Kane. I am the 
chairman of the Hawaiian Homes Commission. I manage the 
Department of Hawaiian Home Lands which has the trust 
responsibility of all of the lands and residences and people 
who are on our waiting list.
    Currently right now, as Mrs. Danner articulated, we have 
7,400 residential and agricultural lessees that we serve. We 
also currently have about 18,000 individuals who are qualified 
Native Hawaiians who would have the opportunity, should our 
trust present them for home ownership or land stewardship.
    The Chairman. How many people would be eligible as, quote, 
``Native Hawaiians'' as the bill defines this term, to 
participate in the vote to create the new Native Hawaiian 
entity?
    Ms. Apoliona. There are approximately 400,000 Native 
Hawaiians throughout this country. By choice, they will have to 
make a decision whether they will participate in the process 
for reorganizing the Native Hawaiian Government. It will be 
their decision.
    The Chairman. There are 400,000 people who will decide 
themselves whether they qualify as Native Hawaiians?
    Ms. Apoliona. Part of self-determination, Senator, provides 
for, as we understand it, the ability for a community to define 
its membership, and that we would be afforded similarly that 
decision making process as Native Hawaiians. As we have said 
earlier, the impact of passage of this bill in our minds is 
very minimal, as my testimony has said. The financial impact to 
the Federal budget is very minimal, according to the report of 
the Congressional Budget Office.
    The Chairman. If you will pardon me, I was just asking how 
many people would be eligible as Native Hawaiians, and the 
answer, I guess, is 400,000?
    Ms. Apoliona. Approximately, should they choose to 
participate in reorganizing the Government.
    The Chairman. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, first of all, thank you again 
all of you for your testimony. Chairman Hall, thank you for 
appearing frequently before this committee and providing useful 
testimony as we consider these issues. Your support of this 
legislation is important, and your response to the Chairman's 
question I think gives us the indication of the strength of 
support across the country among Indian tribes.
    Chairman Apoliona, I want to ask the question, if there is 
no financial impact here on the Federal budget, and my 
understanding is this is not something that scores with a 
substantial problem for us, if that is the case, then the 
issues that we deal with on reservations here in this country 
with Native Americans or the issues that I know you are 
concerned about with Native Hawaiians, of unemployment and 
poverty and extraordinarily high mortality rates from heart 
disease and diabetes and so on, how will passage of this 
legislation, if it has no financial impact, how will it affect 
and address some of those issues, do you think?
    Ms. Apoliona. I think, as has been mentioned by previous 
speakers, the ability to begin to reconcile our historic 
wrongs, and through the self-governance process allow for 
Native Hawaiians as a people to oversee and direct their future 
and administration of their assets, both land and resources 
that will be brought to bear and under the administration of a 
Native Hawaiian governing entity.
    The 400,000 Native Hawaiians that I refer to, Senators, 
across this Nation, Native Hawaiians, is approximately 400,000 
of all ages. There are much less adult Hawaiians as part of 
these statistics. But it will give an opportunity to guide the 
future in a self-determined way via a Native Hawaiian 
government that will be structured by Native Hawaiians.
    Senator Dorgan. So you are saying in a sense that the self-
governance that is available under this would provide the 
ability to better manage the resources?
    Ms. Apoliona. Better manage the resources, implement 
programs that will address the needs of our people 
collectively, less dependence on government funding, and really 
provide us a strength for Native Hawaiian communities to 
participate in our national and local economy.
    Senator Dorgan. Mr. Chairman, I think that the record here 
that has been submitted by our witnesses provides a pretty 
substantial amount of information for the committee. I hope 
that we can perhaps as we go along and consider this 
legislation, call on them perhaps by submitting additional 
questions for additional information.
    I want to thank all of you for participating this morning 
in this important hearing.
    The Chairman. Thank you very much, Senator Dorgan.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I also want to add that when we talk about support, that 
our State legislature, since the year 2000, has on two 
occasions passed resolutions supporting this bill.
    My first question is to Jade of CNHA. Jade, CNHA has done 
workshops on the positive economic impact of Native Hawaiian 
programs on Hawaii's economy. Can you share some of the data 
with this committee on those programs?
    Ms. Danner. Yes, Senator; I wanted to clarify for Chairman 
McCain, first, that the people who are eligible for homesteads, 
the reason that the number is different and that it does not 
have a budgetary impact is that all legislation save the 
Hawaiian Homes Commission Act is already using the definition 
of Native Hawaiian that is in the bill. So the funds that are 
appropriated now relate to that.
    But according to the economic impact, and this is linked, 
because the $59 million that I talked about is for programs. It 
is Federal funding that comes for programs for Native Hawaiian 
people with the definition of the bill. That, in turn, 
generates the $147 million in economic productivity. So this is 
a significant resource for our State's economy. It is, in 
looking at diversity of funding and trying to build an economy 
that is more diversified, it is certainly one of the 
significant sources of diversification for our community in 
terms of the homes and the construction and the private sector 
businesses that providing these services creates.
    Senator Akaka. I want you to please convey my aloha to your 
sister Robin. I should tell you that the first time, Mr. 
Chairman, I visited Point Barrow in Alaska, I met many people, 
and I met these two girls and made the comment, you two girls 
look like you are from Hawaii. [Laughter.]
    And to my surprise they said yes. They were from Hawaii. 
They were Jade and her sister Robin, who eventually moved back 
to Hawaii and have been working in our interests.
    Jade, I thank CNHA, particularly you and your sister, and 
also Tony Sang, for being here today and supporting us, and for 
all of the outreach that CNHA has done to the people of Hawaii 
to help them understand this legislation.
    Can you share with my colleagues what CNHA has done to help 
educate the people of Hawaii about this bill?
    Ms. Danner. Absolutely, Senator. The Council for Native 
Hawaiian Advancement, we provide information and resources, and 
so one of the things we do is conduct workshops in the 
communities on specific issues that relate to Native Hawaiian 
concerns. We have held over 50 community-based workshops in 
Hawaii and across the continental United States to Native 
Hawaiian communities, also attended by members of the Hawaii 
business community and the community at large, on what the 
Akaka bill does.
    We also try to put it in a context, because for Native 
Hawaiians to imagine what this means in the context of Federal 
law, we do not get to look down the road, 15 miles down the 
road, and see the next-door neighbor tribe and see how it plays 
out as a circumstance, because we are so far removed. So we 
have tried to bring information about Federal Indian law, about 
the history, and about how these authorities helped to bring 
basic services, housing, education, welfare, those kinds of 
real services to Native Hawaiians and to their own control, and 
how American Indians and Alaska Natives have used that to build 
their communities up.
    I saw a recent article that states that found that self-
determination is working. It is the first working policy for 
American Indians and Alaska Natives, a Harvard study no less. 
And so we take those out to the community and we have reached 
over 5,000 Native Hawaiians. What we see is as Native Hawaiian 
knowledge about this world of Indian law and how self-
governance works for American Indians, and we can make it more 
concrete for them, then support grows and understanding grows, 
and they start to have real ideas about how to implement this 
very needed thing.
    This is just an example of one of the materials that we 
distribute to each member. Each person who comes to our 
workshops gets a booklet this thick that contains the full text 
of the legislation, and some frequently asked questions and 
background information.
    So those are some of the kinds of efforts we have done.
    Senator Akaka. I know the Hawaiian community has supported 
the bill. I know that other organizations as well have done 
work in this area, in educating the Hawaiians.
    Tex Hall of NCAI, and also Julie Kitka, thank you so much 
for being here, and thank you for your unwavering support 
throughout the past 6 years. We would not have been able to 
have such a strong bill were it not for your willingness to 
share you, and I quote, share your ``lessons learned.'' Some of 
my colleagues have expressed concern that providing Federal 
recognition will be harmful to American Indians and Alaska 
Natives. I know you have made some comments on this already, 
but what is your additional response to that comment? Tex?
    Mr. Hall. Thank you for the question, Senator Akaka. I 
would disagree with that completely. Federal recognition and 
self-determination works. As Jade Danner had mentioned, the 
Harvard study clearly shows that it works. When indigenous 
peoples can govern and manage their own affairs, their health 
improves, the economy improves, the educational literacy 
improves, their Native culture remains intact, their Native 
language remains intact, better relations are developed within 
the community and the surrounding community within the State. 
Everyone really improves with the socioeconomic conditions.
    So Federal recognition, self-determination clearly is a 
great, I think it is a great victory for American Indian and 
Alaska Natives. So if that is afforded in S. 147, I am firmly 
confident that that will occur with the Native Hawaiians as 
well.
    Senator Akaka. Thank you very much.
    Julie.
    Ms. Kitka. Mr. Chairman, Senator Akaka, to respond to your 
question, my name is Julie Kitka. I am the president of the 
Alaska Federation of Natives.
    I agree with Chairman Tex Hall that self-determination is 
one of the most successful Federal policies that we have in 
recent experience. We believe that the recognition of the 
Native Hawaiians is just another building block in the whole 
notion of self-determination.
    I would also cast self-determination as part of 
strengthening democracy here at home. The United States has 
made a policy of strengthening democracy and freedom all around 
the world. I think it is very important to look at this 
recognition bill as a building block of self-determination and 
strengthening democracy here at home.
    Native Americans, American Indians, Alaska Natives and 
Native Hawaiians have the highest rate of participation in the 
military services since World War II in every branch of the 
service. I look at the Vietnam War, in particular Alaska 
Natives, we had the highest rate of volunteerism for that, not 
draft. I think it is really important to strengthen democracy 
at home, and I think the recognition of the Native Hawaiians is 
a component of strengthening democracy, as well as furthering 
self-determination.
    I would hope that once the Hawaiians are recognized, that 
the Congress would be ready to move on a whole other level of 
self-determination which would empower our people to contribute 
even more to this country.
    Thank you.
    Senator Akaka. Thank you very much for your responses. I 
also want to say aloha to the trustees of the OHA, who are 
here, and welcome and thank you for coming.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    I thank the witnesses for coming such a long way. We 
appreciate your views. As I said, we will move this to a vote 
of the committee by sometime next week.
    This hearing is adjourned. Thank you.
    [Whereupon, at 11:25 a.m. the committee was adjourned, to 
reconvene at the call of the chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Neil Abercrombie, U.S. Representative from 
                                 Hawaii

    Thank you Chairman McCain and Vice Chairman Dorgan for allowing me 
to submit my testimony in support of S. 147, the Native Hawaiian 
Government Reorganization Act of 2005. I appreciate your willingness to 
hold this hearing and to hear from the people of the State of Hawaii.
    This bill would provide Native Hawaiians a process through which 
the Federal recognition. Rather than summarize the details of the 
legislation, I would like to focus on why this legislation is so 
urgently needed in Hawaii and why passage of S. 147 would be the fair 
and honorable thing to do.
    The State of Hawaii was once the Kingdom of Hawaii, with a monarchy 
that was afforded full diplomatic recognition by the United States. On 
January 17, 1893, the government of the Kingdom of Hawaii was 
overthrown by a group of American citizens, who acted with the support 
of U.S. Minister John Stephens and a contingent of U.S. Marines from 
the U.S.S. Boston. It is important to note that the Native Hawaiian 
people never willingly relinquished their inherent claims to 
sovereignty and to this day, retain their unique identity through their 
distinct cultural, social and political traditions and institutions.
    Following the annexation, the conditions of Native Hawaiians in the 
territory of Hawaii declined to such an extent that Congress passed a 
law to set aside more than 200,000 acres of land to address these 
problems. These lands were not given back to the Native Hawaiian 
people. Rather, the Federal Government held the title and administered 
these lands for Native Hawaiians. When Hawaii achieved statehood, these 
lands were included in a public trust and the Federal Government 
transferred administrative responsibility to the government of the 
State of Hawaii. To this day, Native Hawaiians remain subject to the 
final authority of the Federal Government.
    Native Hawaiians are a distinct indigenous population with their 
own culture, identity and assets set aside for their benefit. However, 
unlike other indigenous populations, Native Hawaiians do not have 
control over their own land, resources and other assets. S. 147 would 
remedy this error and extend to Native Hawaiians the policy of self-
governance and self-determination currently practiced by American 
Indians and Alaska Natives.
    It is important to note that the Federal Government already treats 
Native Hawaiians as an indigenous population in many respects. The U.S. 
Congress has enacted over 160 laws designed to address the conditions 
of Native Hawaiians. These Federal laws provide for the provision of 
healthcare, education, job training, the preservation of native 
languages, the protection of Native American graves and the 
repatriation of Native American human remains. Thus, recognition would 
not necessitate new programs nor would it impact existing programs for 
American Indians and Alaska Natives. It simply gives Native Hawaiians a 
seat at the table and a voice in matters affecting their destiny.
    It is time for the United States to formally recognize its special 
relationship and extend justice to the Native Hawaiian people.
                                 ______
                                 

  Prepared Statement of Hon. Ed Case, U.S. Representative from Hawaii

    Mr. Chairman, Senator Dorgan, and members of the committee, good 
morning and aloha! As the Representative from the Congressional 
district with more Native Hawaiians than any other in our country, I am 
honored today to testify in unqualified support of S. 147, the Native 
Hawaiian Government Reorganization Act, introduced by my colleagues, 
Senators Akaka and Inouye, on January 25, 2005. My House colleague, 
Congressman Neil Abercrombie, and I co-introduced companion 
legislation, H.R. 309, on the same day in the House. Our collective 
actions mark a united and continuing commitment by Hawaii's entire 
delegation to the most vital single piece of legislation for our Hawaii 
since Statehood.
    This legislation affirms the longstanding political relationship 
between Native Hawaiians, the indigenous peoples of our Hawaii, and our 
Federal Government, and extends to Native Hawaii is the time-honored 
Federal policy of self-determination provided other indigenous ?peoples 
under U.S. jurisdiction.
    Mr. Chairman, allow me to be direct: This legislation is 
indispensable both to the Hawaiian people, wherever they are, and to 
all of our Hawaii. The stakes are nothing more or less than the 
survival and prosperity not only of our indigenous people and culture, 
but of the very soul of our Hawaii as we know and love it.
    From that perspective, I speak to you today on behalf of all of 
Hawaii's people, and all those worldwide for whom Hawaii, in all of her 
forms, be they natural, environmental, cultural social, or spiritual, 
is a truly special and unique place. And I say to you that Hawaii--the 
Hawaii that is the indigenous home of all Native Hawaiians, that my own 
ancestors and many other non-Native Hawaiians embraced since recorded 
Western discovery in 1778, and that so many throughout the world 
continue to view as a beacon for what can be in our world--our Hawaii 
has never been so at risk as today.
    It is at risk because it is a creation of and rests upon the 
foundation of our Native Hawaiian people and culture, and their 
survival and prosperity are at risk. As they go, so goes Hawaii as we 
know it, and a Hawaii which is not Hawaiian is not a Hawaii I can bear 
to envision.
    Nor is Federal recognition for Native Hawaiians exclusively a 
Hawaii issue. Census figures show that our country is home to more than 
400,000 Native Hawaiians, with 160,000 living outside of Hawaii. And 
clearly the preservation of the Hawaii that so many throughout our 
world have come to know and love is of great concern to so many well 
beyond our borders.
    So our goal is not only reaffirming the longstanding historical and 
political relationship between Native Hawaiians and the United States, 
not only delivering fairness and justice to Native Hawaiians, but 
ensuring the very survival and prosperity of our Native Hawaiian people 
and culture and, through them, Hawaii itself. And this is a truly 
common goal, evidenced by road-based support among Hawaii's political 
leaders, and Hawaiians and non-Hawaiians alike, which spans ethnic, 
partisan and other distinctions.
    The goal of assisting Native Hawaiians is not new to our Federal 
Government. Beyond a longstanding relationship that was reaffirmed when 
Hawaii became a territory in 1900 and a State in 1959, over 160 Federal 
statutes have enacted programs to better the conditions of Native 
Hawaiians in areas such as Hawaiian homelands, health, education and 
economic development, all exercises of Congress' plenary authority 
under our U.S. Constitution to address the conditions of indigenous 
peoples. These have been matched by State and quasi-autonomous entities 
such as the Office of Hawaiian Affairs and the Department of Hawaiian 
Home Lands, and private entities like the Kamehameha Schools. And they 
have born fruit with a renewed focus on unique Native Hawaiian needs 
and a renaissance of Native Hawaiian culture. Federal recognition is 
the big picture framework by which these indispensable efforts can be 
carried forward into the next generation of Native Hawaiian governance.
    Federal recognition is also the time-honored means of memorializing 
our government's relationship With the indigenous peoples of the 
contiguous 48 States and Alaska. There, either government-to-government 
treaties or the Bureau of Indian Affairs recognition process or 
legislative recognition have extended self-determination and affirmed 
relationships. Although the difference between those peoples and Native 
Hawaiians is exclusively geographic, such means have simply not been 
either available or exercised in the case of Native Hawaiians.
    Nor is the goal of extending Federal recognition to Native 
Hawaiians a new one. The enactment into law in 1993 of the Apology 
Resolution [P.L. 103-150] expressed a national commitment to 
reconciliation efforts between Native Hawaiians and the Federal 
Government. Subsequent efforts through the Departments of Justice and 
Interior, as well as the White House Initiative on Asian Americans and 
Pacific Islanders established by executive orders of both Presidents 
Clinton and Bush, identified Federal recognition legislation and the 
inclusion of Native Hawaiians in Federal programs and services as top 
priorities. In fact, during the 106th Congress, the House passed 
Federal recognition legislation for Native Hawaiians, on September 26, 
2000.
    Most recently, the Office of Hawaiian Relations was established 
within the Department of the Interior. Structurally organized under the 
Assistant Secretary for Policy, Management, and Budget, this new office 
is a welcome and positive step forward in coordinating policies within 
the Department as they affect Native Hawaiians. Already the Department 
oversees pertinent issues such as Hawaiian home lands, historic 
preservation, the Native American Graves Protection Act, the Native 
Hawaiian Culture and Arts Program, and the consideration of Native 
Hawaiians in natural resources management, including our Hawaii 
national parks.
    The time is long overdue for our Federal Government to create a 
permanent and sustainable relationship with Native Hawaiians in order 
to resolve longstanding issues and ensure the survival and prosperity 
of the Native Hawaiian people and culture and of their special home. 
For all of us in Hawaii, Mr. Chairman, and in fact for all Native 
Hawaiians wherever throughout our country and world they may live, I 
urge the passage of this crucial legislation.
                                 ______
                                 

  Prepared Statement of Hon. Byron L. Dorgan, U.S. Senator from North 
           Dakota, Vice Chairman, Committee on Indian Affairs

    I thank the chairman for scheduling this hearing today on a bill 
that is very important to two of our most distinguished members of this 
committee--the former chairman and vice chairman, Senator Inouye, and 
the principal sponsor of this legislation, Senator Akaka.
    I have had the opportunity to visit with the chair of the Board of 
Trustees of the Office of Hawaiian Affairs, and I have learned that 
through this bill, the Native Hawaiian people simply seek a status 
under Federal law that is equal to that of America's other Native 
peoples--American Indians and Alaska Natives.
    Federal programs for Native Hawaiians that provide support for 
education, health care, housing, job training and employment, and 
protection of cultural resources have been in place since the 1970's, 
and that is why the Congressional Budget Office has projected that 
there will be no impact on the Federal budget--whether measured in 
terms of budget authority or outlays--associated with the extension of 
Federal recognition to a Native Hawaiian government.
    And to those who are concerned that this bill will give rise to 
conditions that may be similar to some of the less desirable dynamics 
in Indian country, this reorganized Native Hawaiian government will sit 
down and negotiate with the United States and the State of Hawaii to 
work out their relationships and the exercise of their respective 
governmental powers and authorities.
    Once the three governments have reached agreements, the Congress 
and the legislature of the State of Hawaii will have to enact further 
legislation to implement their agreements. So we will have the 
opportunity to fully understand the nature and scope of these proposed 
relationships and sharing of governmental powers and authorities before 
we vote on legislation to make their agreements part of Federal law.
    I believe that through this bill, the Senators from Hawaii have 
laid out a process that is not only reasonable and prudent, but which 
will enable the three governments to develop good working relationships 
with one another that will be premised upon their consensus.
                                 ______
                                 

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    I thank our chairman for agreeing to schedule this hearing today so 
that our Governor could be present as the committee considers this 
measure that we believe is vitally important to the State of Hawaii.
    Mr. Chairman, in the interest of time., I will ask that my full 
statement be included in the record, and I will limit my remarks to 
just a few points.
    First, I want to welcome our Governor, the honorable Linda Lingle, 
to this hearing, and to welcome as well the chairperson of the Board of 
Trustees of the Office of Hawaiian Affairs, and all of those who have 
traveled so far to be with us today.
    Second, because so much of what we are here today to consider 
arises out of events that took place long ago, I think it is important 
to note the following--as most of us know, the government of Hawaii 
that represented the Native Hawaiian people was overthrown with the 
assistance of U.S. troops on January 17, 1893; but what is less well 
known, is that notwithstanding the overthrow of their government, the 
Native Hawaiian people never ceased their expression of their political 
status;
  <bullet> \\\\\\Through the Royal Societies and later, the Hawaiian 
        Civic Clubs, all manner of cultural, political and social 
        activities and relationships unique to the Native Hawaiian 
        people were kept intact;
  <bullet> \\\\\\This distinct status of the Native Hawaiian people is 
        so widely accepted as part of the fundamental societal fabric 
        of Hawaii, that it is not at all surprising that ALL of the 
        citizens of Hawaii came together in 1978 to amend the State's 
        constitution to establish the Office of Hawaiian Affairs--in 
        order to assure that Native Hawaiians would have a distinct 
        voice in the government of Hawaii.
    As a member of the Territorial legislature of Hawaii, I was 
privileged to take part in the negotiations that led to our compact 
with the United States, and I know first hand what happened at that 
time.
    It can be seen in our Admissions and it is evidenced in our State 
Constitution.
    The United States and the State of Hawaii agreed at that time that 
Native Hawaiians would continue to have a separate status under Federal 
law--the Statehood Act so provides--as well as under State law--as our 
State's Constitution provides.
    At no time, was there ever discussion of terminating the distinct 
status of the Native Hawaiian people--under either Federal or State 
law.
    At no time did the United States jettison its relationship with the 
Native Hawaiian people--in fact, in contrast, the United States 
retained the authority to enforce against any breach of the Hawaiian 
home lands trust, and to consent to any amendments to the Hawaiian 
Homes Commission Act.
    Over 160 Federal laws have subsequently been enacted by the U.S. 
Congress and signed into law by the succeeding Presidents of the United 
States--each of those laws building upon and adding to the founding 
principles that were recognized at Statehood and before--that Native 
Hawaiians are both citizens of our State and of the United States, but 
like the other indigenous, native people of America--they have their 
own distinct status under the law. That has never changed.
    We are here today to consider a bill that the Congressional Budget 
Office has consistently concluded has no impact on the Federal budget.
    This bill does not make Native Hawaiians into American Indians or 
Alaska Natives--nor does it make Native Hawaiians eligible for programs 
that are designed to assist American Indians or Alaska Natives.
    We have put some disclaimers in this bill, but in my view, they are 
not necessary--because it is clear, and has always been clear, that 
Native Hawaiians are a distinct and unique native people who are 
indigenous to the United States--but they are not American Indians or 
Alaska Natives, nor do they seek to be.
    Rather they seek parity--equality--self-determination and the right 
to self-governance as our Federal policies have recognized for the last 
35 years.
    The fact that the citizens of our State--through our Governor and 
our legislature--so strongly support the reorganization of a Native 
Hawaiian government and the restoration of a relationship with the 
United States should, in my mind, hold great weight.
    We are not naive nor do we enter this arena lightly.
    We have tried for many, many years now to secure passage of this 
legislation, and we have not, nor will we--be deterred from the course 
of action that we believe is in the best interests of all of the 
citizens of our State.
    So I thank you, Mr. Chairman, and Vice Chairman Dorgan, for 
affording us the opportunity to have our voices heard in this--our 
Nation's capital.
                                 ______
                                 

       Prepared Statement of Linda Lingle, Governor, from Hawaii

    Chairman McCain, Vice Chairman Dorgan, Senator Inouye, Senator 
Akaka, and other committee members, thank you for this opportunity to 
speak with you today about an issue of great importance to my State.
    Knowing the many pressing national issues you are facing, I am 
especially grateful for the time you are allocating to hear testimony 
today on S. 147, the Native Hawaiian Government Reorganization Act of 
2005.
    I am appearing before you on behalf of the people of Hawaii. We are 
seeking justice for the Native Hawaiian people, who have been made to 
wait too long for the kind of recognition that Congress has granted to 
America's other indigenous peoples.
    Let me address upfront the claim by some opponents of S. 147 that 
Federal recognition of Native Hawaiians constitutes a race-based 
preference or racial discrimination. Calling S. 147 a race-based 
preference ignores both the facts and the historic relationship that 
has existed between the United States, the former Kingdom of Hawaii and 
the Native Hawaiian people since at least 1826.
    Let's look at the facts.
    Native Hawaiians were governed by their own leaders and their own 
laws long before Europeans and Americans came to the Hawaiian Islands.
    The United States recognized and understood that the Kingdom of 
Hawaii was a sovereign nation as evidenced by the exercise of Congress' 
constitutional authority to confirm treaties between the United States 
and the Kingdom of Hawaii as far back as 1826.
    When the United States annexed Hawaii as a territory, it 
effectively subordinated the Native Hawaiian government to the Federal 
Government. Hence the United States' relationship to the people 
governed by the Native Hawaiian government was political, not racial, 
in nature.
    To those who opine that S. 147 will result in racial 
discrimination, I would posit that the only discrimination that can 
reasonably be associated with this bill is if it fails to become law. 
Let me explain this point.
    The United States is inhabited by three indigenous peoples-American 
Indians, Native Alaskans, and Native Hawaiians.
    While these three indigenous groups differ in culture, history, and 
anthropological origin, all share three fundamental attributes: (1) 
they were here long before any European explorer ever set foot on the 
North American continent or the Hawaiian archipelago; (2) they lived 
according to their own governmental structures on their homelands long 
before the Federal Government of the United States was imposed upon 
them; and (3) the United States historically acknowledged their 
existence as distinct nations.
    Congress has given two of these three populations full self-
governance rights. The Native Hawaiian Government Reorganization Act 
allows Native Hawaiians to receive parity with the Nation's other 
indigenous peoples. To withhold recognition of the Native Hawaiian 
people therefore amounts to discrimination since it would continue to 
treat the Nation's three groups of indigenous people differently.
    The United States has historically recognized Native Hawaiians as a 
separate indigenous people by entering treaties with them as early as 
1826 and enacting over 150 pieces of legislation relating them, 
including measures as recent as 2004.
    Yet today there is no one governmental entity able to speak for or 
represent Native Hawaiians. The act before you today would finally 
allow the process to begin that would bring equal treatment to the 
Native Hawaiian people.
    You are not being asked to extend the ability to establish a self-
governing structure to the Native Hawaiians because of their race. 
Rather you are being asked to do so because of their unique status as 
the indigenous people of a once sovereign nation to whom the United 
States has a recognized trust responsibility. Passage of S. 147 would 
grant simple, but profound justice to the proud Native Hawaiian people 
whose future well-being is essential to the long-term well-being of the 
State of Hawaii.
    Besides granting long-delayed justice to the Native Hawaiian 
people, S. 147 achieves four important results for everyone in the 
State of Hawaii.
    No. 1. Enhances the ability of individual Native Hawaiians to 
become more self-sufficient, which reduces their reliance on State and 
federally funded services.
    A Native Hawaiian government using existing appropriated funds will 
be in a position to engage in meaningful economic development that not 
only will generate revenue for social services and other programs, but 
most importantly will create new employment opportunities for 
individual Native Hawaiians.
    No. 2. Provides greater accountability for and makes more efficient 
and effective use of State and Federal programs.
    In more than 150 pieces of legislation passed during the past 85 
years Congress has recognized the unique needs of Native Hawaiians. 
Having a single governmental entity to represent and speak for the 
Native Hawaiian people will maximize the effectiveness of these 
programs and make it easier to ensure accountability.
    No. 3. Creates the best opportunity to preserve the Native Hawaiian 
culture.
    The unique nature of Hawaii is derived largely from the indigenous 
culture of the Native Hawaiians.
    Native governments, like the one established by this act, are well 
documented to best nurture and protect traditional native culture and 
values.
    In Hawaii, where the Native Hawaiian culture is the primary 
attraction for a tourist industry that fuels the State's economy, 
preservation of the Native Hawaiian culture is an economic imperative.
    No. 4. Protects existing programs by clarifying that the 
relationship between the United States and the Native Hawaiian people 
has government-to-govermnent origins rather than racial origins. 
Current and continuing legal challenges are unnecessarily putting 
programs to benefit Native Hawaiians at risk.
    As I previously testified before your committee in 2003, this bill 
is vital to the survival of the Native Hawaiian people, it is vital to 
providing parity in Federal policy for all native peoples in America, 
and it is vital to the continued character of the State of Hawaii.
    Let me conclude by telling you that this bill will be a unifying 
force for our State. It is supported by every elected official of both 
major political parties, it is supported overwhelmingly by people of 
all ethnic backgrounds, and it is supported by a majority of the 
State's business community, including the two largest banks.
    Your passage of S. 147 will allow a process to begin that will lead 
to the kind of self-government enjoyed by the Nation's other indigenous 
people and it will reaffirm our Nation's commitment of equal treatment 
for all its citizens.
    Thank you again for allocating the committee's valuable time to 
consider this matter of great importance to the people and the State of 
Hawaii.

[GRAPHIC] [TIFF OMITTED] T9723.001

[GRAPHIC] [TIFF OMITTED] T9723.002

[GRAPHIC] [TIFF OMITTED] T9723.003

[GRAPHIC] [TIFF OMITTED] T9723.004

[GRAPHIC] [TIFF OMITTED] T9723.005

[GRAPHIC] [TIFF OMITTED] T9723.006

[GRAPHIC] [TIFF OMITTED] T9723.007

[GRAPHIC] [TIFF OMITTED] T9723.008

[GRAPHIC] [TIFF OMITTED] T9723.009

[GRAPHIC] [TIFF OMITTED] T9723.010

[GRAPHIC] [TIFF OMITTED] T9723.011

[GRAPHIC] [TIFF OMITTED] T9723.012

[GRAPHIC] [TIFF OMITTED] T9723.013

[GRAPHIC] [TIFF OMITTED] T9723.014

[GRAPHIC] [TIFF OMITTED] T9723.015

[GRAPHIC] [TIFF OMITTED] T9723.016

[GRAPHIC] [TIFF OMITTED] T9723.017

[GRAPHIC] [TIFF OMITTED] T9723.018

[GRAPHIC] [TIFF OMITTED] T9723.019

[GRAPHIC] [TIFF OMITTED] T9723.020

[GRAPHIC] [TIFF OMITTED] T9723.021

[GRAPHIC] [TIFF OMITTED] T9723.022

[GRAPHIC] [TIFF OMITTED] T9723.023

[GRAPHIC] [TIFF OMITTED] T9723.024

[GRAPHIC] [TIFF OMITTED] T9723.025

[GRAPHIC] [TIFF OMITTED] T9723.026

[GRAPHIC] [TIFF OMITTED] T9723.027

[GRAPHIC] [TIFF OMITTED] T9723.028

[GRAPHIC] [TIFF OMITTED] T9723.029

[GRAPHIC] [TIFF OMITTED] T9723.030

[GRAPHIC] [TIFF OMITTED] T9723.031

[GRAPHIC] [TIFF OMITTED] T9723.032

[GRAPHIC] [TIFF OMITTED] T9723.033

[GRAPHIC] [TIFF OMITTED] T9723.034

[GRAPHIC] [TIFF OMITTED] T9723.035

[GRAPHIC] [TIFF OMITTED] T9723.036

[GRAPHIC] [TIFF OMITTED] T9723.037

[GRAPHIC] [TIFF OMITTED] T9723.038

[GRAPHIC] [TIFF OMITTED] T9723.039

[GRAPHIC] [TIFF OMITTED] T9723.040

[GRAPHIC] [TIFF OMITTED] T9723.041

[GRAPHIC] [TIFF OMITTED] T9723.042

[GRAPHIC] [TIFF OMITTED] T9723.043

[GRAPHIC] [TIFF OMITTED] T9723.044

[GRAPHIC] [TIFF OMITTED] T9723.045

[GRAPHIC] [TIFF OMITTED] T9723.046

[GRAPHIC] [TIFF OMITTED] T9723.047

[GRAPHIC] [TIFF OMITTED] T9723.048

[GRAPHIC] [TIFF OMITTED] T9723.049

[GRAPHIC] [TIFF OMITTED] T9723.050

[GRAPHIC] [TIFF OMITTED] T9723.051

[GRAPHIC] [TIFF OMITTED] T9723.052

[GRAPHIC] [TIFF OMITTED] T9723.053

[GRAPHIC] [TIFF OMITTED] T9723.054

[GRAPHIC] [TIFF OMITTED] T9723.055

[GRAPHIC] [TIFF OMITTED] T9723.056

[GRAPHIC] [TIFF OMITTED] T9723.057

[GRAPHIC] [TIFF OMITTED] T9723.058

[GRAPHIC] [TIFF OMITTED] T9723.059

[GRAPHIC] [TIFF OMITTED] T9723.060

[GRAPHIC] [TIFF OMITTED] T9723.061

[GRAPHIC] [TIFF OMITTED] T9723.062

[GRAPHIC] [TIFF OMITTED] T9723.063

[GRAPHIC] [TIFF OMITTED] T9723.064

[GRAPHIC] [TIFF OMITTED] T9723.065

[GRAPHIC] [TIFF OMITTED] T9723.066

[GRAPHIC] [TIFF OMITTED] T9723.067

[GRAPHIC] [TIFF OMITTED] T9723.068

[GRAPHIC] [TIFF OMITTED] T9723.069

[GRAPHIC] [TIFF OMITTED] T9723.070

[GRAPHIC] [TIFF OMITTED] T9723.071

[GRAPHIC] [TIFF OMITTED] T9723.072

[GRAPHIC] [TIFF OMITTED] T9723.073

[GRAPHIC] [TIFF OMITTED] T9723.074

[GRAPHIC] [TIFF OMITTED] T9723.075

[GRAPHIC] [TIFF OMITTED] T9723.076

[GRAPHIC] [TIFF OMITTED] T9723.077

[GRAPHIC] [TIFF OMITTED] T9723.078

[GRAPHIC] [TIFF OMITTED] T9723.079

[GRAPHIC] [TIFF OMITTED] T9723.080

[GRAPHIC] [TIFF OMITTED] T9723.081

[GRAPHIC] [TIFF OMITTED] T9723.082

[GRAPHIC] [TIFF OMITTED] T9723.083

[GRAPHIC] [TIFF OMITTED] T9723.084

[GRAPHIC] [TIFF OMITTED] T9723.085

[GRAPHIC] [TIFF OMITTED] T9723.086

[GRAPHIC] [TIFF OMITTED] T9723.087

[GRAPHIC] [TIFF OMITTED] T9723.088

[GRAPHIC] [TIFF OMITTED] T9723.089

[GRAPHIC] [TIFF OMITTED] T9723.090

[GRAPHIC] [TIFF OMITTED] T9723.091

[GRAPHIC] [TIFF OMITTED] T9723.092

[GRAPHIC] [TIFF OMITTED] T9723.093

[GRAPHIC] [TIFF OMITTED] T9723.094

[GRAPHIC] [TIFF OMITTED] T9723.095

[GRAPHIC] [TIFF OMITTED] T9723.096

[GRAPHIC] [TIFF OMITTED] T9723.097

[GRAPHIC] [TIFF OMITTED] T9723.098

[GRAPHIC] [TIFF OMITTED] T9723.099

[GRAPHIC] [TIFF OMITTED] T9723.100

[GRAPHIC] [TIFF OMITTED] T9723.101

[GRAPHIC] [TIFF OMITTED] T9723.102

[GRAPHIC] [TIFF OMITTED] T9723.103

[GRAPHIC] [TIFF OMITTED] T9723.104

[GRAPHIC] [TIFF OMITTED] T9723.105

[GRAPHIC] [TIFF OMITTED] T9723.106

[GRAPHIC] [TIFF OMITTED] T9723.107

[GRAPHIC] [TIFF OMITTED] T9723.108

[GRAPHIC] [TIFF OMITTED] T9723.109

[GRAPHIC] [TIFF OMITTED] T9723.110

[GRAPHIC] [TIFF OMITTED] T9723.111

[GRAPHIC] [TIFF OMITTED] T9723.112

[GRAPHIC] [TIFF OMITTED] T9723.113

[GRAPHIC] [TIFF OMITTED] T9723.114

[GRAPHIC] [TIFF OMITTED] T9723.115

[GRAPHIC] [TIFF OMITTED] T9723.116

[GRAPHIC] [TIFF OMITTED] T9723.117

[GRAPHIC] [TIFF OMITTED] T9723.118

[GRAPHIC] [TIFF OMITTED] T9723.119

[GRAPHIC] [TIFF OMITTED] T9723.120

[GRAPHIC] [TIFF OMITTED] T9723.121

[GRAPHIC] [TIFF OMITTED] T9723.122

[GRAPHIC] [TIFF OMITTED] T9723.123

[GRAPHIC] [TIFF OMITTED] T9723.124

[GRAPHIC] [TIFF OMITTED] T9723.125

[GRAPHIC] [TIFF OMITTED] T9723.126

[GRAPHIC] [TIFF OMITTED] T9723.127

[GRAPHIC] [TIFF OMITTED] T9723.128

[GRAPHIC] [TIFF OMITTED] T9723.129

[GRAPHIC] [TIFF OMITTED] T9723.130

[GRAPHIC] [TIFF OMITTED] T9723.131

[GRAPHIC] [TIFF OMITTED] T9723.132

[GRAPHIC] [TIFF OMITTED] T9723.133

[GRAPHIC] [TIFF OMITTED] T9723.134

[GRAPHIC] [TIFF OMITTED] T9723.135

[GRAPHIC] [TIFF OMITTED] T9723.136

[GRAPHIC] [TIFF OMITTED] T9723.137

[GRAPHIC] [TIFF OMITTED] T9723.138

[GRAPHIC] [TIFF OMITTED] T9723.139

[GRAPHIC] [TIFF OMITTED] T9723.140

[GRAPHIC] [TIFF OMITTED] T9723.141

[GRAPHIC] [TIFF OMITTED] T9723.142

[GRAPHIC] [TIFF OMITTED] T9723.143

[GRAPHIC] [TIFF OMITTED] T9723.144

[GRAPHIC] [TIFF OMITTED] T9723.145

[GRAPHIC] [TIFF OMITTED] T9723.146

[GRAPHIC] [TIFF OMITTED] T9723.147

[GRAPHIC] [TIFF OMITTED] T9723.148

[GRAPHIC] [TIFF OMITTED] T9723.149

[GRAPHIC] [TIFF OMITTED] T9723.150

[GRAPHIC] [TIFF OMITTED] T9723.151

[GRAPHIC] [TIFF OMITTED] T9723.152

[GRAPHIC] [TIFF OMITTED] T9723.153

[GRAPHIC] [TIFF OMITTED] T9723.154

[GRAPHIC] [TIFF OMITTED] T9723.155

[GRAPHIC] [TIFF OMITTED] T9723.156

[GRAPHIC] [TIFF OMITTED] T9723.157

[GRAPHIC] [TIFF OMITTED] T9723.158

[GRAPHIC] [TIFF OMITTED] T9723.159

[GRAPHIC] [TIFF OMITTED] T9723.160

[GRAPHIC] [TIFF OMITTED] T9723.161

[GRAPHIC] [TIFF OMITTED] T9723.162

[GRAPHIC] [TIFF OMITTED] T9723.163

[GRAPHIC] [TIFF OMITTED] T9723.164

[GRAPHIC] [TIFF OMITTED] T9723.165

[GRAPHIC] [TIFF OMITTED] T9723.166

[GRAPHIC] [TIFF OMITTED] T9723.167

[GRAPHIC] [TIFF OMITTED] T9723.168

[GRAPHIC] [TIFF OMITTED] T9723.169

[GRAPHIC] [TIFF OMITTED] T9723.170

[GRAPHIC] [TIFF OMITTED] T9723.171

[GRAPHIC] [TIFF OMITTED] T9723.172

[GRAPHIC] [TIFF OMITTED] T9723.173

[GRAPHIC] [TIFF OMITTED] T9723.174

[GRAPHIC] [TIFF OMITTED] T9723.175

[GRAPHIC] [TIFF OMITTED] T9723.176

[GRAPHIC] [TIFF OMITTED] T9723.177

[GRAPHIC] [TIFF OMITTED] T9723.178

[GRAPHIC] [TIFF OMITTED] T9723.179

[GRAPHIC] [TIFF OMITTED] T9723.180

[GRAPHIC] [TIFF OMITTED] T9723.181

[GRAPHIC] [TIFF OMITTED] T9723.182

[GRAPHIC] [TIFF OMITTED] T9723.183

[GRAPHIC] [TIFF OMITTED] T9723.184

[GRAPHIC] [TIFF OMITTED] T9723.185

[GRAPHIC] [TIFF OMITTED] T9723.186

[GRAPHIC] [TIFF OMITTED] T9723.187

[GRAPHIC] [TIFF OMITTED] T9723.188

[GRAPHIC] [TIFF OMITTED] T9723.189

[GRAPHIC] [TIFF OMITTED] T9723.190

[GRAPHIC] [TIFF OMITTED] T9723.191

[GRAPHIC] [TIFF OMITTED] T9723.192

[GRAPHIC] [TIFF OMITTED] T9723.193

[GRAPHIC] [TIFF OMITTED] T9723.194

[GRAPHIC] [TIFF OMITTED] T9723.195

[GRAPHIC] [TIFF OMITTED] T9723.196

[GRAPHIC] [TIFF OMITTED] T9723.197

[GRAPHIC] [TIFF OMITTED] T9723.198

[GRAPHIC] [TIFF OMITTED] T9723.199

[GRAPHIC] [TIFF OMITTED] T9723.200

[GRAPHIC] [TIFF OMITTED] T9723.201

[GRAPHIC] [TIFF OMITTED] T9723.202

[GRAPHIC] [TIFF OMITTED] T9723.203

[GRAPHIC] [TIFF OMITTED] T9723.204

[GRAPHIC] [TIFF OMITTED] T9723.205

[GRAPHIC] [TIFF OMITTED] T9723.206

[GRAPHIC] [TIFF OMITTED] T9723.207

[GRAPHIC] [TIFF OMITTED] T9723.208

[GRAPHIC] [TIFF OMITTED] T9723.209

[GRAPHIC] [TIFF OMITTED] T9723.210

[GRAPHIC] [TIFF OMITTED] T9723.211

[GRAPHIC] [TIFF OMITTED] T9723.212

[GRAPHIC] [TIFF OMITTED] T9723.213

[GRAPHIC] [TIFF OMITTED] T9723.214

[GRAPHIC] [TIFF OMITTED] T9723.215

[GRAPHIC] [TIFF OMITTED] T9723.216

[GRAPHIC] [TIFF OMITTED] T9723.217

[GRAPHIC] [TIFF OMITTED] T9723.218

[GRAPHIC] [TIFF OMITTED] T9723.219

[GRAPHIC] [TIFF OMITTED] T9723.220

[GRAPHIC] [TIFF OMITTED] T9723.221

[GRAPHIC] [TIFF OMITTED] T9723.222

[GRAPHIC] [TIFF OMITTED] T9723.223

[GRAPHIC] [TIFF OMITTED] T9723.224

[GRAPHIC] [TIFF OMITTED] T9723.225

[GRAPHIC] [TIFF OMITTED] T9723.226

[GRAPHIC] [TIFF OMITTED] T9723.227

[GRAPHIC] [TIFF OMITTED] T9723.228

[GRAPHIC] [TIFF OMITTED] T9723.229

[GRAPHIC] [TIFF OMITTED] T9723.230

[GRAPHIC] [TIFF OMITTED] T9723.231

[GRAPHIC] [TIFF OMITTED] T9723.232

[GRAPHIC] [TIFF OMITTED] T9723.233

[GRAPHIC] [TIFF OMITTED] T9723.234

[GRAPHIC] [TIFF OMITTED] T9723.235

[GRAPHIC] [TIFF OMITTED] T9723.236

[GRAPHIC] [TIFF OMITTED] T9723.237

[GRAPHIC] [TIFF OMITTED] T9723.238

[GRAPHIC] [TIFF OMITTED] T9723.239

[GRAPHIC] [TIFF OMITTED] T9723.240

[GRAPHIC] [TIFF OMITTED] T9723.241

[GRAPHIC] [TIFF OMITTED] T9723.242

[GRAPHIC] [TIFF OMITTED] T9723.243

[GRAPHIC] [TIFF OMITTED] T9723.244

[GRAPHIC] [TIFF OMITTED] T9723.245

[GRAPHIC] [TIFF OMITTED] T9723.246

[GRAPHIC] [TIFF OMITTED] T9723.247

[GRAPHIC] [TIFF OMITTED] T9723.248

[GRAPHIC] [TIFF OMITTED] T9723.249

[GRAPHIC] [TIFF OMITTED] T9723.250

[GRAPHIC] [TIFF OMITTED] T9723.251

[GRAPHIC] [TIFF OMITTED] T9723.252

[GRAPHIC] [TIFF OMITTED] T9723.253

[GRAPHIC] [TIFF OMITTED] T9723.254

[GRAPHIC] [TIFF OMITTED] T9723.255

[GRAPHIC] [TIFF OMITTED] T9723.256

[GRAPHIC] [TIFF OMITTED] T9723.257

[GRAPHIC] [TIFF OMITTED] T9723.258

[GRAPHIC] [TIFF OMITTED] T9723.259

[GRAPHIC] [TIFF OMITTED] T9723.260

[GRAPHIC] [TIFF OMITTED] T9723.261

[GRAPHIC] [TIFF OMITTED] T9723.262

[GRAPHIC] [TIFF OMITTED] T9723.263

[GRAPHIC] [TIFF OMITTED] T9723.264

[GRAPHIC] [TIFF OMITTED] T9723.265

[GRAPHIC] [TIFF OMITTED] T9723.266

[GRAPHIC] [TIFF OMITTED] T9723.267

[GRAPHIC] [TIFF OMITTED] T9723.268

[GRAPHIC] [TIFF OMITTED] T9723.269

[GRAPHIC] [TIFF OMITTED] T9723.270

[GRAPHIC] [TIFF OMITTED] T9723.271

[GRAPHIC] [TIFF OMITTED] T9723.272

[GRAPHIC] [TIFF OMITTED] T9723.273

[GRAPHIC] [TIFF OMITTED] T9723.274

[GRAPHIC] [TIFF OMITTED] T9723.275

[GRAPHIC] [TIFF OMITTED] T9723.276

[GRAPHIC] [TIFF OMITTED] T9723.277

[GRAPHIC] [TIFF OMITTED] T9723.278

[GRAPHIC] [TIFF OMITTED] T9723.279

[GRAPHIC] [TIFF OMITTED] T9723.280

[GRAPHIC] [TIFF OMITTED] T9723.281

[GRAPHIC] [TIFF OMITTED] T9723.282

[GRAPHIC] [TIFF OMITTED] T9723.283

[GRAPHIC] [TIFF OMITTED] T9723.284

[GRAPHIC] [TIFF OMITTED] T9723.285

[GRAPHIC] [TIFF OMITTED] T9723.286

[GRAPHIC] [TIFF OMITTED] T9723.287

[GRAPHIC] [TIFF OMITTED] T9723.288

[GRAPHIC] [TIFF OMITTED] T9723.289

[GRAPHIC] [TIFF OMITTED] T9723.290

[GRAPHIC] [TIFF OMITTED] T9723.291

[GRAPHIC] [TIFF OMITTED] T9723.292

[GRAPHIC] [TIFF OMITTED] T9723.293

[GRAPHIC] [TIFF OMITTED] T9723.294

[GRAPHIC] [TIFF OMITTED] T9723.295

[GRAPHIC] [TIFF OMITTED] T9723.296

[GRAPHIC] [TIFF OMITTED] T9723.297

[GRAPHIC] [TIFF OMITTED] T9723.298

[GRAPHIC] [TIFF OMITTED] T9723.299

[GRAPHIC] [TIFF OMITTED] T9723.300

[GRAPHIC] [TIFF OMITTED] T9723.301

[GRAPHIC] [TIFF OMITTED] T9723.302

[GRAPHIC] [TIFF OMITTED] T9723.303

[GRAPHIC] [TIFF OMITTED] T9723.304

[GRAPHIC] [TIFF OMITTED] T9723.305

[GRAPHIC] [TIFF OMITTED] T9723.306

[GRAPHIC] [TIFF OMITTED] T9723.307

[GRAPHIC] [TIFF OMITTED] T9723.308

[GRAPHIC] [TIFF OMITTED] T9723.309

[GRAPHIC] [TIFF OMITTED] T9723.310

[GRAPHIC] [TIFF OMITTED] T9723.311

[GRAPHIC] [TIFF OMITTED] T9723.312

[GRAPHIC] [TIFF OMITTED] T9723.313

[GRAPHIC] [TIFF OMITTED] T9723.314

[GRAPHIC] [TIFF OMITTED] T9723.315

[GRAPHIC] [TIFF OMITTED] T9723.316

[GRAPHIC] [TIFF OMITTED] T9723.317

[GRAPHIC] [TIFF OMITTED] T9723.318

[GRAPHIC] [TIFF OMITTED] T9723.319

[GRAPHIC] [TIFF OMITTED] T9723.320

[GRAPHIC] [TIFF OMITTED] T9723.321

[GRAPHIC] [TIFF OMITTED] T9723.322

[GRAPHIC] [TIFF OMITTED] T9723.323

[GRAPHIC] [TIFF OMITTED] T9723.324

[GRAPHIC] [TIFF OMITTED] T9723.325

[GRAPHIC] [TIFF OMITTED] T9723.326

[GRAPHIC] [TIFF OMITTED] T9723.327

[GRAPHIC] [TIFF OMITTED] T9723.328

[GRAPHIC] [TIFF OMITTED] T9723.329

[GRAPHIC] [TIFF OMITTED] T9723.330

[GRAPHIC] [TIFF OMITTED] T9723.331

[GRAPHIC] [TIFF OMITTED] T9723.332

[GRAPHIC] [TIFF OMITTED] T9723.333

[GRAPHIC] [TIFF OMITTED] T9723.334

[GRAPHIC] [TIFF OMITTED] T9723.335

[GRAPHIC] [TIFF OMITTED] T9723.336

[GRAPHIC] [TIFF OMITTED] T9723.337

[GRAPHIC] [TIFF OMITTED] T9723.338

[GRAPHIC] [TIFF OMITTED] T9723.339

[GRAPHIC] [TIFF OMITTED] T9723.340

[GRAPHIC] [TIFF OMITTED] T9723.341

[GRAPHIC] [TIFF OMITTED] T9723.342

[GRAPHIC] [TIFF OMITTED] T9723.343

[GRAPHIC] [TIFF OMITTED] T9723.344

[GRAPHIC] [TIFF OMITTED] T9723.345

[GRAPHIC] [TIFF OMITTED] T9723.346

[GRAPHIC] [TIFF OMITTED] T9723.347

[GRAPHIC] [TIFF OMITTED] T9723.348

[GRAPHIC] [TIFF OMITTED] T9723.349

[GRAPHIC] [TIFF OMITTED] T9723.350

[GRAPHIC] [TIFF OMITTED] T9723.351

[GRAPHIC] [TIFF OMITTED] T9723.352

[GRAPHIC] [TIFF OMITTED] T9723.353

[GRAPHIC] [TIFF OMITTED] T9723.354

[GRAPHIC] [TIFF OMITTED] T9723.355

[GRAPHIC] [TIFF OMITTED] T9723.356

[GRAPHIC] [TIFF OMITTED] T9723.357

[GRAPHIC] [TIFF OMITTED] T9723.358

[GRAPHIC] [TIFF OMITTED] T9723.359

[GRAPHIC] [TIFF OMITTED] T9723.360

[GRAPHIC] [TIFF OMITTED] T9723.361

[GRAPHIC] [TIFF OMITTED] T9723.362

[GRAPHIC] [TIFF OMITTED] T9723.363

[GRAPHIC] [TIFF OMITTED] T9723.364

[GRAPHIC] [TIFF OMITTED] T9723.365

[GRAPHIC] [TIFF OMITTED] T9723.366

[GRAPHIC] [TIFF OMITTED] T9723.367

[GRAPHIC] [TIFF OMITTED] T9723.368

[GRAPHIC] [TIFF OMITTED] T9723.369

[GRAPHIC] [TIFF OMITTED] T9723.370

[GRAPHIC] [TIFF OMITTED] T9723.371

[GRAPHIC] [TIFF OMITTED] T9723.372

[GRAPHIC] [TIFF OMITTED] T9723.373

[GRAPHIC] [TIFF OMITTED] T9723.374

[GRAPHIC] [TIFF OMITTED] T9723.375

[GRAPHIC] [TIFF OMITTED] T9723.376

[GRAPHIC] [TIFF OMITTED] T9723.377

[GRAPHIC] [TIFF OMITTED] T9723.378

[GRAPHIC] [TIFF OMITTED] T9723.379

[GRAPHIC] [TIFF OMITTED] T9723.380

[GRAPHIC] [TIFF OMITTED] T9723.381

[GRAPHIC] [TIFF OMITTED] T9723.382

[GRAPHIC] [TIFF OMITTED] T9723.383

[GRAPHIC] [TIFF OMITTED] T9723.384

[GRAPHIC] [TIFF OMITTED] T9723.385

[GRAPHIC] [TIFF OMITTED] T9723.386

[GRAPHIC] [TIFF OMITTED] T9723.387

[GRAPHIC] [TIFF OMITTED] T9723.388

[GRAPHIC] [TIFF OMITTED] T9723.389

[GRAPHIC] [TIFF OMITTED] T9723.390

[GRAPHIC] [TIFF OMITTED] T9723.391

[GRAPHIC] [TIFF OMITTED] T9723.392

[GRAPHIC] [TIFF OMITTED] T9723.393

[GRAPHIC] [TIFF OMITTED] T9723.394

[GRAPHIC] [TIFF OMITTED] T9723.395

[GRAPHIC] [TIFF OMITTED] T9723.396

[GRAPHIC] [TIFF OMITTED] T9723.397

[GRAPHIC] [TIFF OMITTED] T9723.398

[GRAPHIC] [TIFF OMITTED] T9723.399

[GRAPHIC] [TIFF OMITTED] T9723.400

[GRAPHIC] [TIFF OMITTED] T9723.401

[GRAPHIC] [TIFF OMITTED] T9723.402

[GRAPHIC] [TIFF OMITTED] T9723.403

[GRAPHIC] [TIFF OMITTED] T9723.404

[GRAPHIC] [TIFF OMITTED] T9723.405

[GRAPHIC] [TIFF OMITTED] T9723.406

[GRAPHIC] [TIFF OMITTED] T9723.407

[GRAPHIC] [TIFF OMITTED] T9723.408

[GRAPHIC] [TIFF OMITTED] T9723.409

[GRAPHIC] [TIFF OMITTED] T9723.410

[GRAPHIC] [TIFF OMITTED] T9723.411

[GRAPHIC] [TIFF OMITTED] T9723.412

[GRAPHIC] [TIFF OMITTED] T9723.413

[GRAPHIC] [TIFF OMITTED] T9723.414

[GRAPHIC] [TIFF OMITTED] T9723.415

[GRAPHIC] [TIFF OMITTED] T9723.416

[GRAPHIC] [TIFF OMITTED] T9723.417

[GRAPHIC] [TIFF OMITTED] T9723.418

[GRAPHIC] [TIFF OMITTED] T9723.419

[GRAPHIC] [TIFF OMITTED] T9723.420

[GRAPHIC] [TIFF OMITTED] T9723.421

[GRAPHIC] [TIFF OMITTED] T9723.422

[GRAPHIC] [TIFF OMITTED] T9723.423

[GRAPHIC] [TIFF OMITTED] T9723.424

[GRAPHIC] [TIFF OMITTED] T9723.425

[GRAPHIC] [TIFF OMITTED] T9723.426

[GRAPHIC] [TIFF OMITTED] T9723.427

[GRAPHIC] [TIFF OMITTED] T9723.428

[GRAPHIC] [TIFF OMITTED] T9723.429

[GRAPHIC] [TIFF OMITTED] T9723.430

[GRAPHIC] [TIFF OMITTED] T9723.431

[GRAPHIC] [TIFF OMITTED] T9723.432

[GRAPHIC] [TIFF OMITTED] T9723.433

[GRAPHIC] [TIFF OMITTED] T9723.434

[GRAPHIC] [TIFF OMITTED] T9723.435

[GRAPHIC] [TIFF OMITTED] T9723.436

[GRAPHIC] [TIFF OMITTED] T9723.437

[GRAPHIC] [TIFF OMITTED] T9723.438

[GRAPHIC] [TIFF OMITTED] T9723.439

[GRAPHIC] [TIFF OMITTED] T9723.440

[GRAPHIC] [TIFF OMITTED] T9723.441

[GRAPHIC] [TIFF OMITTED] T9723.442

[GRAPHIC] [TIFF OMITTED] T9723.443

[GRAPHIC] [TIFF OMITTED] T9723.444

[GRAPHIC] [TIFF OMITTED] T9723.445

[GRAPHIC] [TIFF OMITTED] T9723.446

[GRAPHIC] [TIFF OMITTED] T9723.447

[GRAPHIC] [TIFF OMITTED] T9723.448

[GRAPHIC] [TIFF OMITTED] T9723.449

[GRAPHIC] [TIFF OMITTED] T9723.450

[GRAPHIC] [TIFF OMITTED] T9723.451

[GRAPHIC] [TIFF OMITTED] T9723.452

[GRAPHIC] [TIFF OMITTED] T9723.453

[GRAPHIC] [TIFF OMITTED] T9723.454

[GRAPHIC] [TIFF OMITTED] T9723.455

[GRAPHIC] [TIFF OMITTED] T9723.456

[GRAPHIC] [TIFF OMITTED] T9723.457

[GRAPHIC] [TIFF OMITTED] T9723.458

[GRAPHIC] [TIFF OMITTED] T9723.459

[GRAPHIC] [TIFF OMITTED] T9723.460

[GRAPHIC] [TIFF OMITTED] T9723.461

[GRAPHIC] [TIFF OMITTED] T9723.462

[GRAPHIC] [TIFF OMITTED] T9723.463

[GRAPHIC] [TIFF OMITTED] T9723.464

[GRAPHIC] [TIFF OMITTED] T9723.465

[GRAPHIC] [TIFF OMITTED] T9723.466

[GRAPHIC] [TIFF OMITTED] T9723.467

[GRAPHIC] [TIFF OMITTED] T9723.468

[GRAPHIC] [TIFF OMITTED] T9723.469

[GRAPHIC] [TIFF OMITTED] T9723.470

[GRAPHIC] [TIFF OMITTED] T9723.471

[GRAPHIC] [TIFF OMITTED] T9723.472

[GRAPHIC] [TIFF OMITTED] T9723.473

[GRAPHIC] [TIFF OMITTED] T9723.474

[GRAPHIC] [TIFF OMITTED] T9723.475

[GRAPHIC] [TIFF OMITTED] T9723.476

[GRAPHIC] [TIFF OMITTED] T9723.477

[GRAPHIC] [TIFF OMITTED] T9723.478

[GRAPHIC] [TIFF OMITTED] T9723.479

[GRAPHIC] [TIFF OMITTED] T9723.480

[GRAPHIC] [TIFF OMITTED] T9723.481

[GRAPHIC] [TIFF OMITTED] T9723.482

[GRAPHIC] [TIFF OMITTED] T9723.483

[GRAPHIC] [TIFF OMITTED] T9723.484

[GRAPHIC] [TIFF OMITTED] T9723.485

[GRAPHIC] [TIFF OMITTED] T9723.486

[GRAPHIC] [TIFF OMITTED] T9723.487

[GRAPHIC] [TIFF OMITTED] T9723.488

[GRAPHIC] [TIFF OMITTED] T9723.489

[GRAPHIC] [TIFF OMITTED] T9723.490

[GRAPHIC] [TIFF OMITTED] T9723.491

[GRAPHIC] [TIFF OMITTED] T9723.492

[GRAPHIC] [TIFF OMITTED] T9723.493

[GRAPHIC] [TIFF OMITTED] T9723.494

[GRAPHIC] [TIFF OMITTED] T9723.495

[GRAPHIC] [TIFF OMITTED] T9723.496

[GRAPHIC] [TIFF OMITTED] T9723.497

[GRAPHIC] [TIFF OMITTED] T9723.498

[GRAPHIC] [TIFF OMITTED] T9723.499

[GRAPHIC] [TIFF OMITTED] T9723.500

[GRAPHIC] [TIFF OMITTED] T9723.501

[GRAPHIC] [TIFF OMITTED] T9723.502

[GRAPHIC] [TIFF OMITTED] T9723.503

[GRAPHIC] [TIFF OMITTED] T9723.504

[GRAPHIC] [TIFF OMITTED] T9723.505

[GRAPHIC] [TIFF OMITTED] T9723.506

[GRAPHIC] [TIFF OMITTED] T9723.507

[GRAPHIC] [TIFF OMITTED] T9723.508

[GRAPHIC] [TIFF OMITTED] T9723.509

[GRAPHIC] [TIFF OMITTED] T9723.510

[GRAPHIC] [TIFF OMITTED] T9723.511

[GRAPHIC] [TIFF OMITTED] T9723.512

[GRAPHIC] [TIFF OMITTED] T9723.513

[GRAPHIC] [TIFF OMITTED] T9723.514

[GRAPHIC] [TIFF OMITTED] T9723.515

[GRAPHIC] [TIFF OMITTED] T9723.516

[GRAPHIC] [TIFF OMITTED] T9723.517

[GRAPHIC] [TIFF OMITTED] T9723.518

[GRAPHIC] [TIFF OMITTED] T9723.519

[GRAPHIC] [TIFF OMITTED] T9723.520

[GRAPHIC] [TIFF OMITTED] T9723.521

[GRAPHIC] [TIFF OMITTED] T9723.522

[GRAPHIC] [TIFF OMITTED] T9723.523

[GRAPHIC] [TIFF OMITTED] T9723.524

[GRAPHIC] [TIFF OMITTED] T9723.525

[GRAPHIC] [TIFF OMITTED] T9723.526

[GRAPHIC] [TIFF OMITTED] T9723.527

[GRAPHIC] [TIFF OMITTED] T9723.528

[GRAPHIC] [TIFF OMITTED] T9723.529

[GRAPHIC] [TIFF OMITTED] T9723.530

[GRAPHIC] [TIFF OMITTED] T9723.531

[GRAPHIC] [TIFF OMITTED] T9723.532

[GRAPHIC] [TIFF OMITTED] T9723.533

[GRAPHIC] [TIFF OMITTED] T9723.534

[GRAPHIC] [TIFF OMITTED] T9723.535

[GRAPHIC] [TIFF OMITTED] T9723.536

[GRAPHIC] [TIFF OMITTED] T9723.537

[GRAPHIC] [TIFF OMITTED] T9723.538

[GRAPHIC] [TIFF OMITTED] T9723.539

[GRAPHIC] [TIFF OMITTED] T9723.540

[GRAPHIC] [TIFF OMITTED] T9723.541

[GRAPHIC] [TIFF OMITTED] T9723.542

[GRAPHIC] [TIFF OMITTED] T9723.543

[GRAPHIC] [TIFF OMITTED] T9723.544

[GRAPHIC] [TIFF OMITTED] T9723.545

[GRAPHIC] [TIFF OMITTED] T9723.546

[GRAPHIC] [TIFF OMITTED] T9723.547

[GRAPHIC] [TIFF OMITTED] T9723.548

[GRAPHIC] [TIFF OMITTED] T9723.549

[GRAPHIC] [TIFF OMITTED] T9723.550

[GRAPHIC] [TIFF OMITTED] T9723.551

[GRAPHIC] [TIFF OMITTED] T9723.552

[GRAPHIC] [TIFF OMITTED] T9723.553

[GRAPHIC] [TIFF OMITTED] T9723.554

[GRAPHIC] [TIFF OMITTED] T9723.555

[GRAPHIC] [TIFF OMITTED] T9723.556

[GRAPHIC] [TIFF OMITTED] T9723.557

[GRAPHIC] [TIFF OMITTED] T9723.558

[GRAPHIC] [TIFF OMITTED] T9723.559

[GRAPHIC] [TIFF OMITTED] T9723.560

                                 <all>

</pre></body></html>
